APPENDIX

1a
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

TRENDSETTAH USA,
INC. and TREND
SETTAH, INC.
Plaintiffs-Appellants / Cross-Appellees,

Nos. 16-56823; 16-56827
D.C. No.
8:14-cv-01664-JVS-DFM
MEMORANDUM*

v.
SWISHER INTERNATIONAL, INC.,
Defendant-Appellee
/ Cross- Appellant.

February 8, 2019

Appeal from the United States District Court
for the Central District of California
James V. Selna, District Judge, Presiding
Argued and Submitted November 16, 2018
Pasadena, California


This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

2a
Before: FLETCHER and PAEZ, Circuit Judges, and
GLEASON,** District Judge.
Following a jury verdict for Trendsettah USA, Inc.
and Trend Settah, Inc. (“TSI”) in TSI’s antitrust and
breach of contract case against Swisher International,
Inc. (“Swisher”), the district court granted Swisher’s
motion for a new trial as to TSI’s antitrust claims but
not as to TSI’s contract claims. The district court
granted Swisher judgment as a matter of law
(“JMOL”) as to TSI’s monopolization claim but not as
to TSI’s attempted monopolization claim. Later, following our decision in Aerotec International, Inc. v.
Honeywell International, Inc., 836 F.3d 1171 (9th Cir.
2016), the district court reconsidered its earlier summary judgment order, this time granting Swisher
summary judgment as to TSI’s antitrust claims.1
1. We begin our analysis with the district court’s
reconsideration of summary judgment because, were
we to affirm the district court’s post-trial grant of
summary judgment to Swisher, we would not reach
many of the district court’s rulings on the other issues.2 We review the district court’s decision to reconsider summary judgment for abuse of discretion, and
we review the district court’s summary judgment determination de novo. See Smith v. Clark Cty. Sch.
Dist., 727 F.3d 950, 954–55 (9th Cir. 2013).
**

The Honorable Sharon L. Gleason, United States District
Judge for the District of Alaska, sitting by designation.
1
Swisher properly cross-appealed as to the district court’s antitrust rulings. See Fed. R. App. P. 28.1(c)(4); Schwartzmiller v.
Gardner, 752 F.2d 1341, 1345 (9th Cir. 1984).
2

We need not decide whether the district court erred in denying Swisher a new trial as to the breach of contract claims due to
our disposition of other issues as set forth in this memorandum.

3a
The district court did not abuse its discretion in
reconsidering summary judgment in light of Aerotec’s
holding that “there is only a duty not to refrain from
dealing where the only conceivable rationale or purpose is ‘to sacrifice short-term benefits in order to obtain higher profits in the long run from the exclusion
of competition.’” 836 F.3d at 1184 (quoting MetroNet
Servs. Corp. v. Qwest Corp., 383 F.3d 1124, 1132 (9th
Cir. 2004)). Aerotec’s holding addressed a question of
law that Swisher had raised prior to trial regarding
what constitutes anticompetitive conduct. See F.B.T.
Prods., LLC v. Aftermath Records, 621 F.3d 958, 962–
63 (9th Cir. 2010) (holding that a court may reconsider
a question of law that was raised “at some point before
the judge submitted the case to the jury” where argument does not rest on the sufficiency of the evidence);
see also Williams v. Gaye, 895 F.3d 1106, 1122 (9th
Cir. 2018) (discussing Ortiz v. Jordan, 562 U.S. 180
(2011)).
However, in reconsidering summary judgment,
the district court failed to draw all reasonable inferences in favor of TSI, the nonmoving party. To the contrary, the district court cited evidence that Swisher
had introduced at trial to support its assertion that it
had legitimate business reasons for its conduct. But in
rendering its verdict, the jury clearly had rejected this
evidence. See Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133, 151 (2000) (“[A]lthough the court
should review the record as a whole, it must disregard
all evidence favorable to the moving party that the
jury is not required to believe.”). Therefore, the district court’s post-trial grant of summary judgment to
Swisher on the antitrust claims must be reversed.
2. We turn then to the jury instruction issue,
which formed the basis of the trial court’s granting of

4a
a new trial on the attempted monopolization claim.
Swisher adequately preserved its objection to the trial
court’s failure to give Swisher’s proposed Jury Instruction 29. See Hunter v. Cty. of Sacramento, 652
F.3d 1225, 1230–31 (9th Cir. 2011). Swisher’s “claim
of error relating to the jury instructions, preserved by
way of objection at trial, is subject to harmless-error
analysis.” United States v. DeJarnette, 741 F.3d 971,
983 (9th Cir. 2013). However, on the merits, we hold
that the jury instruction that was given adequately
and accurately instructed the jury on the applicable
law. Although the precise wording of the proposed instruction was different, the principle in the instruction that was given is the same: in order for Swisher
to have violated the antitrust laws, its only purpose
must have been to harm TSI.3 Therefore, the district
court erred in granting a new trial as to the attempted
monopolization claim.
3. We turn next to the district court’s JMOL rulings. The district court erred in granting JMOL to
Swisher as to TSI’s monopolization claim because the
jury could agree with Swisher’s expert that the relevant market was national, and agree with TSI’s expert that Swisher was liable for national damages.
See Zhang v. Am. Gem Seafoods, Inc., 339 F.3d 1020,
1038 (9th Cir. 2003) (“We must accept any reasonable
interpretation of the jury’s actions, reconciling the
jury’s findings ‘by exegesis if necessary[.]’” (quoting
Gallick v. Baltimore & Ohio R.R. Co., 372 U.S. 108,
119 (1963))).
3

Jury Instruction 29, which was given, states in relevant part:
“Thus, if Swisher’s conduct harmed TSI’s independent interests
and made sense only to maintain monopoly power, it was not
based on legitimate business purposes.” Cf. Aerotec, 836 F.3d at
1184

5a
The district court did not err in denying Swisher’s
JMOL motion as to attempted monopolization because “a reasonable jury could find that Swisher attempted to monopolize a national market, but was
successful in monopolizing only some regional markets.” See Estate of Diaz v. City of Anaheim, 840 F.3d
592, 604 (9th Cir. 2016) (“The test is whether ‘the evidence, construed in the light most favorable to the
nonmoving party, permits only one reasonable conclusion, and that conclusion is contrary to that of the
jury.’” (quoting White v. Ford Motor Co., 312 F.3d 998,
1010 (9th Cir. 2002), opinion amended on denial of
reh’g, 335 F.3d 833 (9th Cir. 2003))), cert. denied sub
nom. City of Anaheim, Cal. v. Estate of Diaz, 137 S.
Ct. 2098 (2017).
The district court also properly rejected Swisher’s
assertion in its JMOL motion that TSI had failed to
show antitrust injury. “Swisher failed to rebut” TSI’s
evidence that “Swisher failed to timely deliver approximately 200 million cigarillos under the private label
agreements.” The district court correctly held that “a
reasonable jury could find that the restricted market
output for cigarillos harmed competition.” See Ohio v.
Am. Express Co., 138 S. Ct. 2274, 2288 (2018) (“[We]
‘will not infer competitive injury from price and output data absent some evidence that tends to prove that
output was restricted or prices were above a competitive level.’” (emphasis added) (quoting Brooke Group
Ltd. v. Brown & Williamson Tobacco Corp., 509 U.S.
209, 237 (1993))).

6a
We hold as follows: the district court’s decision to
reconsider its summary judgment ruling is AFFIRMED. The district court’s grant of summary
judgment to Swisher as to its antitrust claims is REVERSED. The district court’s grant of a new trial to
Swisher as to the attempted monopolization claim is
REVERSED. The district court’s grant of JMOL to
Swisher as to the monopolization claim is REVERSED. The district court’s denial of JMOL to
Swisher as to the attempted monopolization claim is
AFFIRMED. On remand, the district court is directed to reinstate the jury’s verdict in its entirety.
We award costs to TSI. See Fed. R. App. P. 39(a)(4).
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

7a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Trendsettah USA, Inc.,
et al.,
Plaintiffs,

Case No. SACV14-01664
JVS (DFMx)
November 9, 2016

v.
Swisher International
Inc.,

The Honorable
James V. Selna

Defendant.

Proceedings:

(IN
CHAMBERS)
Order
GRANTING Defendant’s Motion for Reconsideration and
DENYING Plaintiff’s Motion
for Reconsideration

Before the Court are two motions for reconsideration.
Defendant Swisher International, Inc. (“Swisher”)
has moved for reconsideration of the Court’s August
17, 2016 order, Docket No. 262, denying Swisher judgment as a matter of law on its attempted monopolization claims. Docket No. 268. Plaintiffs Trendsettah
USA, Inc. and Trend Settah, Inc. (together “Trendsettah”) have opposed. Docket No. 271. Swisher has
replied. Docket No. 272.

8a
Trendsettah has also moved for reconsideration of
the Court’s August 17 order, Docket No. 262, granting
Swisher a new trial on the attempted monopolization
claim and a conditional new trial on the monopolization claim. Docket No. 267. Swisher has opposed.
Docket No. 269. Trendsettah has replied. Docket No.
271.
For the following reasons, the Court grants
Swisher’s motion for reconsideration and denies
Trendsettah’s motion for reconsideration.
BACKGROUND
Swisher is a cigar manufacturer with its principal
place of business in Florida. In January 2011,
Swisher entered into a supply agreement with Trendsettah, another cigar manufacturer, to manufacture
cigarillos for Trendsettah under the “Splitarillos”
brand name. In early December 2011, Swisher notified Trendsettah that it was terminating the supply
agreement because Trendsettah failed to meet certain
minimum order requirements as specified in the
agreement. After discussions between the parties,
they amended the supply agreement to terminate in
October 2012. In February 2013, after the supply
agreement expired, Swisher and Trendsettah entered
into another supply agreement, this time scheduled to
terminate in February 2014. The parties did not renew the second supply agreement when it ultimately
expired in February 2014.
In October 2014, Trendsettah sued Swisher for
claims arising out of Swisher’s alleged breach of the
supply agreements. The complaint alleged nine
causes of action: (1) monopolization and attempted
monopolization in violation of the Sherman Act, 15

9a
U.S.C. § 2; (2) monopolization and attempted monopolization in violation of Florida Antitrust Law, Fl.
Stat. § 542.19; (3) breach of contract; (4) breach of the
implied covenant of good faith and fair dealing; (5)
trade libel; (6) tortious interference with contract; (7)
intentional interference with prospective business relationships; (8) negligent interference with prospective business relationships; and (9) unfair competition
in violation of the California Unfair Competition Law,
Cal. Bus. & Prof. Code § 17200 et seq. Docket No. 1.
In May 2015, the Court dismissed the state law
claims for negligent interference and unfair competition for failure to state a claim. Docket No. 40. In January 2016, the Court dismissed the state law claims
for trade libel, tortious interference with contract, and
intentional interference with prospective business relationships on summary judgment. Docket No. 99.
The Court then scheduled trial on the remaining antitrust and contract claims for March 2016.
At trial, a jury found Swisher liable on the antitrust and contract claims. Docket No. 207 at 2-3.
Swisher then moved for renewed judgment as a matter of law on the antitrust claims or, in the alternative,
for a new trial on both the antitrust and contract
claims. Docket No. 233. The Court granted Swisher’s
motion on the monopolization claim, but denied it on
the attempted monopolization claim. Docket No. 262
at 19. The Court granted the motion for a new trial
on the attempted monopolization claim and a conditional new trial on the monopolization claim, but the
Court denied Swisher’s motion for a new trial on the
contract claims. Id.

10a
LEGAL STANDARD
Reconsideration is permissible “only on the
grounds of (a) a material difference in fact or law from
that presented to the Court before such decision that
in the exercise of reasonable diligence could not have
been known to the party moving for reconsideration at
the time of such decision, or (b) the emergence of new
material facts or a change of law occurring after the
time of such decision, or (c) a manifest showing of a
failure to consider material facts presented to the
Court before such decision.” L.R. 7-18. Furthermore,
no motion for reconsideration may “repeat any oral or
written argument made in support of or in opposition
to the original motion.” Id.
ANALYSIS
I.

SWISHER’S MOTION FOR RECONSIDERATION

Swisher argues that the Ninth Circuit’s recent decision in Aerotec Int’l, Inc. v. Honeywell Int’l, Inc., 836
F.3d 1171 (9th Cir. 2016), supports reconsideration
because it shows that Trendsettah’s anticompetitive
claims fail as a matter of law. Def. Mot., Docket No.
268. Alternatively, Swisher argues that Aerotec also
supports reconsideration of the Court’s earlier decision to deny summary judgment in Swisher’s favor on
Trendsettah’s Sherman Act Section 2 claims. Id.
A. Under Aerotec, a defendant is only liable
for a refusal-to-deal if its only purpose
was to sacrifice short-term profits for anticompetitive gains.
Businesses generally have no duty to deal with
competitors. High Tech. Careers v. San Jose News,
996 F.2d 987, 990 (9th Cir. 1993) (citing Eastman Kodak Co. v. Image Technical Services, Inc., 504 U.S.

11a
451, 483 n.32 (1992)). Businesses therefore are “free
to choose the parties with whom they will deal, as well
as the prices, terms, and conditions of that dealing.”
Pac. Bell Tel. Co. v. Linkline Commc’ns, Inc., 555 U.S.
438, 448 (2009) (citing United States v. Colgate & Co.,
250 U.S. 300, 307 (1919)). As a result, businesses typically do not face antitrust liability for their unilateral
refusal-to-deal with their competitors. See Id.
But this right is not absolute. Aspen Skiing v. Aspen Highlands Skiing Corp., 472 U.S. 585, 601 (1985)
(“[T]he high value that we have placed on the right to
refuse to deal with other firms does not mean that the
right is unqualified.”). “Under certain circumstances,
a refusal to cooperate with rivals can constitute anticompetitive conduct and violate § 2.” Verizon
Commc’ns Inc. v. Law Offices of Curtis V. Trinko,
LLP, 540 U.S. 398, 408 (2004). For example, businesses may be liable for antitrust violations when
there are no legitimate business reasons for their refusal to deal. See Eastman Kodak, 504 U.S. at 483
n.32 (citing Aspen Skiing, 472 U.S. at 602-605) (“But
such a right is not absolute; it exists only if there are
legitimate competitive reasons for the refusal.”).
Therefore, businesses have a duty to deal with
competitors when (1) the business unilaterally terminates a voluntary course of dealing spanning several
years, sacrificing short-term profits or (2) the business
refuses to provide competitors with products that are
already sold in a retail market to other customers.
Trinko, 540 U.S. at 409-10; see also MetroNet Servs.
Corp. v. Qwest Corp., 383 F.3d 1124, 1132-33 (9th Cir.
2004) (analyzing the scope of the antitrust duty to deal
under Aspen Skiing and Trinko). Even with these ex-

12a
ceptions, however, courts have been reluctant to impose antitrust liability for purely unilateral conduct.
Trinko, 540 U.S. at 408.
Aerotec recently added to this law. Aerotec International Inc. (“Aerotec”) sued Honeywell International Inc. (“Honeywell”) on antitrust claims. 836 F.3d
at 1174. Honeywell is a large manufacturer of auxiliary power units (“APUs”); APUs “power aircraft functions such as electricity and temperature.” Id. In contrast, “Aerotec is a small, independent company that
maintains and repairs Honeywell APUs.” Id. To perform these repairs, Aerotec must obtain the necessary
parts “by submitting purchase orders for parts on an
as-needed basis through spot contracts with Honeywell.” Id. at 1176. In contrast, the majority of Aerotec’s competitors, called Honeywell affiliates, enter
into long-term contracts for parts. Id. “Under these
agreements, a servicer typically agrees to certain obligations and royalty fees in exchange for discounts on
Honeywell OEM parts, priority in allocation of parts
in shortages, and a license to use Honeywell’s intellectual property for APU repairs.” Id. Honeywell itself
also repairs APUs. Id.
Honeywell uses a tiered pricing structure. Id.
This means that independent servicers, such as Aerotec, pay more for necessary parts “in spot orders than
do self-servicing airlines, and typically pay more than
Honeywell affiliates who negotiate prices as part of
their long-term agreements.” Id. The structure also
gives independent companies a lower priority than
Honeywell affiliates. Id. at 1177. Because of this
lower priority, a worldwide parts shortage damaged
Aerotec. Id. Honeywell continued to sell parts to Aer-

13a
otec, but could not fulfill all of its orders. Id. As a result, Aerotec could not complete its contracts with clients and suffered dwindling market share. Id.
In response, Aerotec filed antitrust claims against
Honeywell. Aerotec alleged that Honeywell delayed
shipments, “maintained an overly burdensome ordering process, held Aerotec to stringent payment terms
at the same time that it failed to deliver parts, withheld needed technical information that previously had
been provided as a matter of course, lured airline clients away from independent servicers by offering
steeply discounted bundles of parts and repair services, and imposed a pricing penalty on independent
servicers vis-a-vis airlines and Honeywell affiliates.”
Id.
The Ninth Circuit affirmed the district court’s
grant of summary judgment in Aerotec’s favor. Id. It
held that, “as a general matter, the Sherman Act ‘does
not restrict the long recognized right of [a] trader or
manufacturer engaged in an entirely private business, freely to exercise his own independent discretion
as to parties with whom he will deal.” Id. at 1183
(quoting Trinko, 540 U.S. at 408). The court recognized Aspen Skiing’s “limited exception” but found it
inapplicable because “Aerotec simply did not like”
Honeywell’s business terms. Id. at 1184. The Ninth
Circuit rejected Aerotec’s argument that “intent to
foreclose competition is sufficient to establish § 2 liability.” Id. Intent is necessary – but not sufficient – to
establish attempted monopolization. Id. The court reaffirmed the rule that “there is no duty to deal under
the terms and conditions preferred by rivals.” Id. (citing Linkline, 555 U.S. at 457). Instead, “there is only
a duty not to refrain from dealing where the only conceivable rationale or purpose is to sacrifice short-term

14a
benefits in order to obtain higher profits in the long
run from the exclusion of competition[.]” Id. (internal
quotations omitted) (emphasis added) (citing MetroNet, 383 F.3d at 1132).
B. The Court may consider Swisher’s arguments for reconsideration of its motion
for summary judgment because the sufficiency of a plaintiff’s theory of anticompetitive conduct is a question of law that
remains reviewable even without a Rule
50(a) motion.
The Court must first determine whether Swisher
has waived the ability to bring this issue on a motion
for reconsideration.
In its prior order the Court held that Swisher
waived its arguments regarding an antitrust duty to
deal. Docket No. 262 at 9. In particular, it held that
Swisher’s initial motion for judgment as a matter of
law argued only that Trendsettah failed to show antitrust or causal antitrust injury. Id. at 7. The Court
relied on the preverdict motion’s transcript; there
Swisher did not mention an antitrust duty. The Court
rejected Swisher’s claims that the argument was preserved by counsel’s statement that “plaintiffs’ case-inchief has been based on really a breach of contract
case and nothing more.” Id. at 9 (quoting Docket No.
250 at 16 (quoting Docket No. 233-9 at 70-71)).
Swisher offers three arguments for why the Court
should reconsider its order. First, it argues that, under Aerotec, Swisher did not waive its refusal-to-deal
challenge because Swisher repeatedly argued that
Trendsettah’s case was foreclosed by refusal-to-deal
precedent. It stated that Trendsettah had “‘not intro-

15a
duced evidence to prove every element of [its] antitrust claim,’ and that ‘[t]hroughout the presentation, .
. . [TSI’s] case-in-chief has been based on really a
breach of contract case and nothing more.’” Swisher
Mot. at 10, Docket No. 268 (alterations in original)
(quoting Docket. No. 250 at 10 (citing 3/23 T.195-96)).
This is the same argument the Court rejected in
its prior order – Aerotec does not compel a different
result. Docket No. 262 at 7-9. Although Aerotec addresses refusal-to-deal claims, it does not alter the law
on Rule 50(b) motions. Therefore, reconsideration is
not proper on this basis.
Second, Swisher argues that, under Aerotec, refusal to deal is a question of law that is “preserved
even in the absence of a specific Rule 50(a) motion.”
Def. Mot. at 11, Docket No. 268. Rule 50(b) motions
may only be made on the same ground as the party’s
Rule 50(a) motion. See E.E.O.C. v. Go Daddy Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009).
A court may review questions of law if they were
raised before the judge submitted the case to the jury.
F.B.T. Prods., LLC v. Aftermath Records, 621 F.3d
958, 963 (9th Cir. 2010). For instance, in F.B.T., the
plaintiff did not file a Rule 50(a) motion. Id. at 962.
But it did file a motion for summary judgment arguing
that the contracts at issue were ambiguous. Because
this argument did not rest on the sufficiency of the evidence presented, the Ninth Circuit held that the
plaintiff preserved it for appeal. Id. at 963.
Here, the Court previously denied Swisher’s motion for summary judgment because it found a “a genuine dispute of material fact as to whether valid business reasons motivated Swisher’s alleged failure to
fulfill orders and refusal to renew the Second Private

16a
Label Agreement.” Docket No. 99 at 13-14. The sufficiency of a plaintiff’s theory of anticompetitive conduct is a question of law. MetroNet, 383 F.3d at 1130,
n.11 (quoting SmileCare Dental Grp. v. Delta Dental
Plan of California, Inc., 88 F.3d 780, 783 (9th Cir.
1996)) (“Whether specific conduct is anti-competitive
is a question of law reviewed de novo.”); Oahu Gas
Serv., Inc. v. Pac. Res., Inc., 838 F.2d 360, 368 (9th
Cir. 1988) (reviewing de novo jury determinations
that conduct was anticompetitive).
Therefore,
Swisher may seek reconsideration of its summary
judgment motion.
C. Under Aerotec, Swisher is entitled to
summary judgment because it presented
evidence that any refusal had other purposes besides sacrificing short term profits for long-term anticompetitive gains.
Aerotec clarified previous Supreme Court precedent: under Aerotec there is no antitrust duty to deal
if the defendant had some “conceivable rationale or
purpose” aside from anticompetitive conduct. See 836
F.3d at 1184. Aerotec’s repeated use of “only” means
that any legitimate “rationale or purpose” precludes
liability. Therefore, to prove an antitrust duty to deal,
the plaintiff must establish that the defendant had no
motivations other than anticompetitive conduct. See
id. See also Aspen, 472 U.S. at 610-11 (decision to forsake short-term profits “not motivated by efficiency
concerns” but “entirely” by anticompetitive goals);
Christy Sports, LLC v. Deer Valley Resort Co., 555
F.3d 1188, 1197 (10th Cir. 2009) (emphasis added)
(“The critical fact in Aspen Skiing was that there were
no valid business reasons for the refusal.”).

17a
As discussed, even evidence of anticompetitive intent is insufficient if the defendant also has some legitimate reason for its actions. See Aerotec, 836 F.3d
at 1184 (“§ 2 of the Sherman Act regulates anti-competitive conduct, not merely anti-competitive aspirations or an independent decision on terms of dealing
with a competitor.”). Therefore, the defendant can defeat the plaintiff’s refusal-to-deal claim with evidence
that shows it had some purpose besides anticompetitive intent. See id.; See also In re Adderall XR Antitrust Litig., 754 F.3d 128, 135 (2d Cir. 2014), as corrected, (June 19, 2014) (rejecting a refusal-to-deal
claim because the terminated agreements were unprofitable); Novell, Inc. v. Microsoft Corp., 731 F.3d
1064, 1075 (10th Cir. 2013) (quoting Trinko, 540 U.S.
at 407) (emphasis added) (defendant’s conduct “must
suggest a willingness to forsake short-term profits to
achieve an anti-competitive end.”). This clarifies the
standard and means that, in the Ninth Circuit, any
non-monopolistic rationale precludes liability for a refusal-to-deal theory. Therefore, reconsideration is appropriate.
Here, Swisher presented significant evidence that
it had business reasons to prioritize production of its
own cigarillos over Splitarillos—and thereby increase
its profits. For instance, Swisher presented evidence
that it was more profitable for Swisher to produce its
own cigarillos instead of Splitarillos. Compare Trial
Ex. 156 with Trial Ex. 157. Swisher’s profits ranged
from -1.5 percent to 19 percent on Splitarillos; in contrast its margins for Swisher’s products were 25.1 percent to 34.4 percent during the same period. Id. This
suggests that Swisher’s cigarillos were generally more
profitable to Swisher than Splitarillos. Swisher even
lost money on Splitarillos one year. 3/24 Trans. 13:5-

18a
10; Trial Ex. 156, Docket No. 242-1. Hence, prioritizing Splitarillos might have increased Swisher’s profits.
Swisher may have also gained production efficiencies from prioritizing its own products. Pom Poms and
Splitarillos were produced on the same machinery at
the same plant; this meant that Swisher had to shift
capacity to produce Splitarillos. Green Decl. ¶ 14;
Docket no. 67-10. Swisher also suggested that Trendsettah failed to place orders with sufficient specificity
and advance notice. Id. ¶ 6. Therefore, Swisher may
have terminated the relationship because of production difficulties. If this, or any other efficiency concern, played a part in the decision, then Swisher is entitled to summary judgment as a matter of law. See
Oahu Gas, 838 F.2d at 368-69 (overturning jury finding of anticompetitive conduct as a matter of law because the defendant’s decision was motivated, at least
in part, by legitimate business reasons).
Furthermore, Trendsettah repeatedly argued that
Swisher prioritized its own production over Trendsettah’s. For instance, in opening arguments Trendsettah argued that Swisher prioritized its own Pom
cigarillos over Trendsettah’s Splitarillos. 3/15 Trans.
132: 19-25, Docket No. 233-9. But such prioritization
is perfectly legal from an antitrust standpoint as long
as Swisher did so to help its own business. See Aerotec, 836 F.3d at 1176 (no duty to deal when Honeywell
prioritized delivery of its own parts over Aerotec’s).
Trendsettah offers four arguments for why Aerotec does not control here. First, Trendsettah argues
that this is not a refusal-to-deal case because Trendsettah disclaimed that theory. Pl. Opp’n at 9, Docket
No. 270. Trendsettah argues that anticompetitive
conduct is a standard, not any single label. Id. at 9-10.

19a
While this is a true statement of law, Trendsettah’s
proposed anticompetitive actions fit under the rubric
of a refusal-to-deal claim. Although anticompetitive
conduct comes in many forms, courts have developed
“specific rules for common forms of alleged misconduct.” See Novell, 731 F.3d at 1072. These rules apply
regardless of how a plaintiff characterizes its conduct.
See Linkline, 555 U.S. at 450 (applying refusal-to-deal
precedent even when plaintiff did not explicitly assert
such a claim); Novell, 731 F.3d at 1079 (“Traditional
refusal-to-deal doctrine is not so easily evaded. . . .
Whether one chooses to call a monopolist’s refusal-todeal with a rival an act or omission, interference or
withdrawal of assistance, the substance is the same
and it must be analyzed under the traditional test we
have outlined.”). Therefore, because Trendsettah’s allegations fit under refusal-to-deal precedents, the
Court must apply such rules despite Trendsettah’s
representations.
Second, Trendsettah argues that this is not a refusal-to-deal case because the parties had a voluntary
agreement. Trendsettah attempts to distinguish Aerotec on the basis that Aerotec and Honeywell did not
have a contract, while Trendsettah and Swisher did
have one. Pl. Opp’n at 11. But this mischaracterizes
Aerotec’s facts: Aerotec regularly purchased parts
from Honeywell through spot contracts. 836 F.3d at
1176. Furthermore, Aerotec never discussed the parties’ relationship because it held that “there was no
actual refusal to deal.” Id. at 1184. Trendsettah relies
on Broadcom Corp. v. Qualcomm Inc., 501 F.3d 297,
316 (3d Cir. 2007), to argue that the parties’ voluntary
agreements preclude the applicability of refusal-todeal precedent. But Broadcom only reinforces the
Trinko rule that involuntary conduct cannot create an

20a
antitrust duty to deal. Id. It does not suggest that voluntariness prevents the applicability of otherwise relevant duty-to-deal precedent. Such a ruling would
contradict Aerotec, which applied to duty-to-deal precedents to a voluntary contractual relationship. 836
F.3d at 1176.
Third, Trendsettah distinguishes this case from
Aerotec on the basis that Aerotec eventually received
all the parts it ordered. Pl. Opp’n at 12. But Aerotec
did not base its holding on that fact. Instead, Aerotec
rejected Aerotec’s refusal-to-deal claim because the
parties’ “business pattern” was not “so onerous as to
be tantamount to the conduct in Aspen Skiing.” 836
F.3d at 1184. Likewise, Swisher’s conduct does not
rise to the level of Aspen Skiing’s “narrow exception”
– unlike the Aspen Skiing defendant, Swisher’s evidence suggested numerous, non-monopolistic reasons
for its action. See 472 U.S. at 610-11 (defendant “was
not motivated by efficiency concerns . . . and was willing to sacrifice short-term benefits” to harm its
smaller rival).
Fourth, Trendsettah argues that Aerotec sought
different remedies. Pl. Opp’n at 13. While Aerotec
asked the court to “artificially recreate pre-2007 market conditions[,]” 836 F.3d at 1184, Trendsettah seeks
damages. Pl. Opp’n at 13-14. But, although Aerotec
expressed concerns about this remedy, they did not
control the holding. 836 F.3d at 1184. Furthermore,
even treble damages can chill the conduct antitrust
laws seek to protect. See Trinko, 540 U.S. at 414 (discussing costs of imposting antitrust liability in a treble damages case).
Overall, this evidence shows that Swisher had at
least some rationale for prioritizing its own production over Splitarillos. The situation here is in sharp

21a
contrast to the classic situation in which the monopolist forgoes short-term profit, only to raise prices later.
Here, Swisher’s allocation decisions made it more
profitable. Aerotec, 836 F.3d at 1184; MetroNet, 383
F.3d at 1131. Therefore, under Aerotec’s standard,
Swisher is entitled to summary judgment as a matter
of law.
II. TRENDSETTAH’S MOTION FOR RECONSIDERATION
The Court previously granted Swisher a new trial
on its antitrust claims because the Court’s failure to
instruct the jury on Swisher’s antitrust duty to deal
was harmful error. Docket No. 262 at 11-14. Trendsettah based its monopolization and attempted monopolization claims solely on Swisher’s breach of the
private label agreements. Id. at 13. To impose antitrust liability, the jury first had to determine whether
Swisher properly refused to deal with Trendsettah regarding the private label agreements. Id. Therefore,
the Court erred when it failed to instruct the jury on
Swisher’s duty to deal. Id.
Trendsettah argues that the Court should reconsider its prior ruling granting Swisher a new trial for
two reasons. 1 First, it argues that the jury was
properly instructed under Aerotec. Pl. Mot. at 6-10,
Docket No. 267. Second, it argues that Swisher
waived its objection to the jury instruction. Pl. Mot. at
11, Docket No. 267. Neither argument warrants reconsideration.

1

The Court’s ruling that Swisher is entitled to summary judgment as a matter of law renders its previous order for a new trial
moot. But, even were the Court to deny Swisher’s motion for reconsideration, it would still deny Trendsettah’s motion for the
reasons discussed in II, supra.

22a
A. The jury was not properly instructed under Aerotec because the jury was not told
that Swisher had no general duty to deal
and that Swisher was only liable if it sacrificed short-term profits.
First, Trendsettah argues that Aerotec clarified
the legal standard for refusal-to-deal claims and
shows that the jury was properly instructed. Pl. Mot.
at 6-10, Docket No. 267. The jury received the following instruction:
You must determine whether Swisher
had a legitimate business purpose for
undertaking alleged anticompetitive
conduct. If Swisher’s conduct was designed to protect or further Swisher’s legitimate business purposes, it does not
violate the antitrust laws, even if
Swisher’s conduct injured TSI. A leg itimate business purpose is one that benefits the actor regardless of any harmful
effect on competitors, such as a purpose
to promote efficiency or quality, offer a
better product or service, or increase
short run profits.
Thus, if Swisher conduct was undertaken for a legitimate business purpose,
that conduct deal does not violate antitrust laws even if it ultimately harmed
TSI. The desire to maintain monopoly
power or to block entry of competitors is
generally not a legitimate business purpose. Thus, if Swisher’s conduct harmed
TSI’s independent interests and made
sense only to maintain monopoly power,

23a
it was not based on legitimate business
purposes.
If Swisher’s conduct was based in part on
legitimate business reasons, even if it is
also motivated by the desire to harm
competitors, it does not violate the antitrust laws. It is up to you to determine
whether Swisher’s conduct was motivated by legitimate business purposes or
whether it was designed solely to obtain
or maintain monopoly power.
Jury Instruction No. 29, Docket No. 208 at 53 (alteration to paragraph format).
Trendsettah argues that the jury found that
Swisher’s conduct lacked a legitimate business purpose and sought solely to maintain monopoly power;
this finding necessarily concluded that Swisher’s
“only conceivable rationale or purpose” was exclusionary. Pl. Mot. at 7, Docket No. 267. Therefore, the jury
found that Swisher had an antitrust duty to deal under Aerotec. Id. Because the jury applied the correct
standard, Trendsettah argues that the Court should
overturn its decision granting a new trial. Id.
Reconsideration is not appropriate. The jury’s instruction did not meet the Aerotec standard. To impose liability, Aerotec explicitly requires that “the
only conceivable rationale or purpose” for an action
was “to sacrifice short-term benefits in order to obtain
higher profits in the long run from the exclusion of
competition.” 836 F.3d at 1184.
Here, the jury was not instructed that Swisher
lacked a general duty to deal with Trendsettah. Although the jury may have found specific intent to
maintain monopoly power, it might not have done so

24a
if it had considered the special rules governing a monopolist’s refusal to deal. Docket No. 262 at 14. As a
result, Swisher suffered prejudice and could not effectively argue its refusal-to-deal defense in closing argument. Id. Furthermore, while the jury was told that
a legitimate business justification would preclude liability, it was not instructed that Swisher must have
forsaken short-term profits. Instead, the jury was instructed that an action must have benefitted Swisher
to be considered a legitimate business justification.
Jury Instruction No. 29, Docket No. 208 at 53. Under
this instruction, the jury could have imposed liability
if it found that Swisher’s actions did not benefit
Swisher – even if they did not forsake short-term profits. Such a conclusion is error under Aerotec.
B. Swisher properly preserved its objection
because its proposed jury instruction
broadly applied refusal-to-deal precedents.
Second, Trendsettah argues that the Court failed
to consider that Swisher did not object to the exclusion
of its first refusal-to-deal instruction on the basis that
Swisher first identified post-trial. 2 Pl. Mot. at 11,
Docket No. 267. Therefore, the Court applied the
harmless error standard instead of the appropriate
plain error standard. Id. at 15. Trendsettah is incorrect: Swisher properly objected to the jury instruction
in a manner that preserved its refusal-to-deal arguments for post-trial. Thus, reconsideration on this basis is also inappropriate.

2

Because the Court finds that Swisher did not waive its objection, it does not address whether Trendsettah conceded that
harmless error applies. Def. Opp’n at 9, Docket No. 269.

25a
Rule 51(c) requires a party objecting to a jury to
instruction to “do so on the record, stating distinctly
the matter objected to and the grounds for the objection.” Fed. R. Civ. Pro. 51(c)(1). An objection does not
need to be formal, as long as it is “sufficiently specific
to bring into focus the precise nature of the alleged
error.” Hunter v. Cty. of Sacramento, 652 F.3d 1225,
1230 (9th Cir. 2011). It is sufficient if the objecting
party offered alternative instructions that were denied. Id. at 1231. For instance, in Hunter the “plaintiffs explained that they did “‘not object to [the Monell
instruction] as written,’ but they ‘specifically request[ed] the following proposed instructions be provided as well[.]’” Id. at 1230 (alterations in original).
The list of proposed instructions was a proper objection. Id. at 1231.
Trendsettah argues that the objection was insufficient because it cited the complaint’s allegations that
“Swisher violated Section 2 by its refusal to deal with
TSI to manufacture Splitarillos after January 2014.”
Pl. Mot. at 12 (citing Proposed Jury Instruction No.
29, Docket No. 171 at 102). It also argues that
Swisher linked the refusal-to-deal claim with an “essential facilities” claim, thus limiting its objection. Id.
But Swisher’s proposed instruction does not contain
any limitations; instead it is a broad instruction that
explains how the jury could find that Swisher lawfully
refused to deal. The proposed instruction included a
general statement on the company’s duty to deal. Proposed Jury Instruction No. 29, Docket No. 171 at 100.
And it further specifies the standards necessary to
find for or against Swisher under refusal-to-deal precedent. Id. It does not specify any particular refusal to
deal – in contrast the instruction’s breadth suggests
that refusal-to-deal issues permeate this case. Id. Alt-

26a
hough Swisher’s objection to the instruction’s exclusion is not as broad, when combined with the proposed
instruction it gives sufficient notice. See Hunter at
1230.
In sum, the instruction applies duty-to-deal precedents to all possible antitrust claims and provides
the Court adequate notice of the basis for Swisher’s
objection. The Court properly applied the harmless
error standard in its previous order and found that
Swisher was entitled to a new trial on its antitrust
claims. 3 Therefore, the Court denies Trendsettah’s
motion for reconsideration.
CONCLUSION
For the foregoing reasons the Court grants
Swisher’s motion for reconsideration of its motion for
summary judgment. After reconsideration, the Court
grants Swisher’s motion for summary judgment on its
antitrust claims. The Court denies Trendsettah’s
motion for reconsideration.

3

Because the Court finds that it previously applied the proper
standard it does not address whether Swisher is entitled to a new
trial under the plain error standard.

27a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Trendsettah USA, Inc.,
et al.,
Plaintiffs,

Case No. SACV14-01664
JVS (DFMx)
August 17, 2016

v.
Swisher International
Inc.,

The Honorable
James V. Selna

Defendant.

Proceedings:

(IN
CHAMBERS)
Order
GRANTING IN PART and
DENYING IN PART Defendant’s Motion for Judgment as
a Matter of Law and Motion
for New Trial
Order Setting
Conference

Scheduling

Defendant Swisher International, Inc. (“Swisher”)
has moved for judgment as a matter of law under Federal Rule of Civil Procedure 50(b). Docket No. 233.
Swisher also seeks a new trial under Rule 59(a). Id.
Plaintiffs Trendsettah USA, Inc. and Trend Settah,
Inc. (together, “Trendsettah”) filed an opposition.

28a
Docket No. 242. Swisher filed a reply. Docket No.
250.
For the reasons stated below, the Court grants in
part and denies in part Swisher’s renewed motion
for judgment as a matter of law and grants in part
and denies in part Swisher’s motion for a new trial.
1.

Background

Swisher is a cigar manufacturer with its principal
place of business in Florida. In January 2011,
Swisher entered into a supply agreement with Trendsettah, another cigar manufacturer, to manufacture
cigarillos for Trendsettah under the “Splitarillos”
brand name. In early December 2011, Swisher notified Trendsettah that it was terminating the supply
agreement because Trendsettah failed to meet certain
minimum order requirements as specified in the
agreement. After discussions between the parties, the
parties amended the supply agreement to terminate
in October 2012. In February 2013, after the supply
agreement expired, Swisher and Trendsettah entered
into another supply agreement, this time scheduled to
terminate in February 2014. The parties did not renew the second supply agreement when it ultimately
expired in February 2014.
In October 2014, Trendsettah sued Swisher for
various misconduct arising out of Swisher’s alleged
breach of the supply agreements. The complaint alleged nine causes of action: (1) monopolization and
attempted monopolization in violation of the Sherman
Act, 15 U.S.C. § 2; (2) monopolization and attempted
monopolization in violation of Florida Antitrust Law,
Fl. Stat. § 542.19; (3) breach of contract; (4) breach of
the implied covenant of good faith and fair dealing; (5)
trade libel; (6) tortious interference with contract; (7)

29a
intentional interference with prospective business relationships; (8) negligent interference with prospective business relationships; and (9) unfair competition
in violation of the California Unfair Competition Law,
Cal. Bus. & Prof. Code § 17200 et seq. Docket No. 1.
In May 2015, the Court dismissed the state law
claims for negligent interference and unfair competition for failure to state a claim. Docket No. 40. Several months later, in January 2016, the Court dismissed the state law claims for trade libel, tortious interference with contract, and intentional interference
with prospective business relationships on summary
judgment. Docket No. 99. Trial on the remaining antitrust and contract claims was then scheduled for
March 2016.
At trial, a jury found Swisher liable on the antitrust and contract claims. Docket No. 207 at 2-3. 1
Swisher now moves for judgment as a matter of law
on the antitrust claims or, in the alternative, for a new
trial on both the antitrust and contract claims. Docket
No. 233.
2.

Renewed Motion for Judgment as a Matter of Law

Swisher argues that it is entitled to judgment as
a matter of law on Trendsettah’s monopolization and
attempted monopolization claims for four reasons:
(1) Swisher had no antitrust duty to deal with Trendsettah; (2) Trendsettah failed to prove antitrust injury; (3) Trendsettah failed to prove actual or threatened monopoly power; and (4) Trendsettah failed to
prove causal antitrust injury. Docket No. 233 at 1135. As explained below, the Court grants Swisher’s

1

All citations are made to the CM/ECF pagination.

30a
motion for judgment as a matter of law on the monopolization claim for failure to prove causal antitrust injury. The Court denies the motion in all other respects.
2.1.

Legal Standard

Rule 50 authorizes the defendant to move for judgment as a matter of law anytime after the plaintiff’s
case-in-chief. Fed. R. Civ. P. 50(a). In determining
whether to grant judgment as a matter of law, the
court must determine whether the jury has a “legally
sufficient evidentiary basis” to find for the plaintiff.
Id. If the judge denies the motion, and the jury later
returns a verdict against the defendant, the defendant
may renew its motion for judgment as a matter of law
after trial. Fed. R. Civ. P. 50(b); EEOC v. Go Daddy
Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009). Like
the preverdict motion, the postverdict motion also
challenges the sufficiency of the plaintiff’s evidence.
Hagen v. City of Eugene, 736 F.3d 1251, 1256 (9th Cir.
2013). If the jury verdict is “supported by substantial
evidence,” the court must uphold the jury verdict.
Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002).
However, if the evidence “permits only one reasonable
conclusion, and that conclusion is contrary to the
jury,” the court may grant judgment as a matter of law
to the defendant. White v. Ford Motor Co., 312 F.3d
998, 1010 (9th Cir. 2002) (internal quotation marks
omitted). When reviewing the evidence, the court
must view the evidence “‘in the light most favorable to
the nonmoving party” and draw “all reasonable inferences” in favor of the nonmoving party. Torres v. City
of Los Angeles, 548 F.3d 1197, 1205-06 (9th Cir. 2008).

31a
2.2.

The Court grants Swisher judgment as a
matter of law on the monopolization claim
for failure to prove causal antitrust injury.

Section 2 of the Sherman Act prohibits businesses
from monopolizing or attempting to monopolize interstate trade or commerce. 15 U.S.C. § 2. To show monopolization in violation of the Sherman Act, the
plaintiff must show that (1) the defendant possessed
monopoly power in a relevant market; (2) the defendant willfully acquired or maintained that power; and
(3) the plaintiff suffered causal antitrust injury.
SmileCare Dental Grp. v. Delta Dental Plan of Cal.,
Inc., 88 F.3d 780, 783 (9th Cir. 1996). By contrast, to
show attempted monopolization, the plaintiff must
show that (1) the defendant engaged in predatory or
anticompetitive conduct; (2) the defendant had a specific intent to monopolize; (3) the defendant had a dangerous probability of achieving monopoly power; and
(4) the plaintiff suffered causal antitrust injury. Rebel
Oil Co. v. Atlantic Richfield Co., 51 F.3d 1421, 143233 (9th Cir. 1995) (citing McGlinchy v. Shell Chem.
Co., 845 F.2d 802, 811 (9th Cir. 1988)).
Swisher argues that Trendsettah failed to prove
causal antitrust injury on both its monopolization and
attempted monopolization claims. Docket No. 233 at
32-35. To show causal antitrust injury, the plaintiff
must show that the defendant’s anticompetitive conduct caused the plaintiff to suffer damages. Glen
Holly Entm’t, Inc. v. Tektronix Inc., 343 F.3d 1000,
1007-08 (9th Cir. 2003); Rebel Oil, 51 F.3d at 1433
(“To show antitrust injury, a plaintiff must prove that
his loss flows from an anticompetitive aspect or effect
of the defendant’s behavior.”). In complex antitrust
cases like this one, this requires the plaintiff to provide an antitrust damages model that establishes how

32a
the defendant’s alleged anticompetitive conduct injured the plaintiff. See Comcast Corp. v. Behrend, -U.S. ---, 133 S. Ct. 1426, 1433 (2013) (“If respondents
prevail on their claims, they would be entitled only to
damages resulting from reduced . . . competition, since
that is the only theory of antitrust impact accepted for
class-action treatment by the District Court.”); Image
Tech. Servs., Inc. v. Eastman Kodak Co., 125 F.3d
1195, 1224 (9th Cir. 1997) (“The ISOs must segregate
damages attributable to lawful competition from damages attributable to Kodak’s monopolizing conduct.”).
Further, the model must be “‘consistent with [the
plaintiff’s] liability case, particularly with respect to
the alleged anticompetitive effect of the violation.’”
Comcast, 133 S. Ct. at 1433 (quoting ABA Section of
Antitrust Law, Proving Antitrust Damages: Legal
and Economic Issues 57, 62 (2d ed. 2010)). Otherwise,
the model may impermissibly allow recovery for damages that are unrelated to the defendant’s anticompetitive conduct. If the model fails to “measure only those
damages attributable to [the plaintiff’s liability] theory,” the model will not survive scrutiny. Id.
2.2.1. Monopolization
Trendsettah failed to provide sufficient evidence
of causal antitrust injury on its monopolization claim
because its national damages models were inconsistent with its regional theory of antitrust liability.
At trial, Trendsettah presented a regional theory of
antitrust liability on its monopolization claim. The regional theory proposed that the relevant markets for
Trendsettah’s monopolization claims were twelve regional markets, and that Swisher had actual or
threatened monopoly power in seven of the twelve regions. See, e.g., Docket No. 233-9 at 94 (“The other issue about relevant market is the relevant geographic

33a
market . . . . We pointed to evidence that these are
regional markets based on the MSA regions or even
state markets . . . .”). To establish causal antitrust
injury in these regional markets, Trendsettah then
presented two alternative damages models: the logistic model and the Good Times model. However,
both models relied only on national data, not regional
data. For example, the Good Times Model calculated
damages using comparative national sales data from
Trendsettah’s competitor, Good Times USA. Docket
No. 243-4 at 44-45 (testimony from Dr. DeForest
McDuff (“McDuff”), Trendsettah’s economic expert,
describing Good Times and logistic damages models);
Docket No. 233-9 at 82 (“The numbers that [McDuff]
was presenting yesterday or two days ago, starting at
30 million and then some various iterations, those are
national . . . . They’re not tied to geography. That is
the sum of the cause that [Trendsettah] suffered.”).
And because both models relied only on national data,
neither model was consistent with Trendsettah’s regional theory of monopolization. Moreover, Trendsettah has failed to explain how the jury could otherwise determine causal antitrust injury in the regional
markets based when relying only on evidence regarding national antitrust injury. Indeed, McDuff’s trial
testimony made clear that monopoly power (or the
dangerous probability thereof) did not exist in all
Trendsettah regions and, in some cases, even in all
states in a given region. The jury therefore lacked
“sufficient evidentiary basis” to find causal antitrust
injury on the monopolization claim. Fed. R. Civ. P.

34a
50(a)(1). Accordingly, the Court grants Swisher judgment as a matter of law on the monopolization claim.2
Trendsettah’s opposition argues that this argument is barred by the doctrine of judicial estoppel because Swisher has previously argued that the jury’s
damages award does not necessarily track expert testimony. Docket No. 242 at 26. This argument misunderstands the issue. The issue is not whether the antitrust verdict was consistent with McDuff’s expert
testimony regarding Trendsettah’s causal antitrust
injury. Rather, the issue is whether the jury had “sufficient evidentiary basis” to find causal antitrust injury. Docket No. 233-9 at 80 (“Said another way, I
don’t know how the jury could take the present evidence and award damages for the territories in which
[McDuff] found either monopolization or attempted
monopolization.”).
2.2.2. Attempted monopolization
Trendsettah has produced sufficient evidence of
causal antitrust injury on its attempted monopolization claim. Unlike with the monopolization claim,
Trendsettah presented two alternative theories of attempted monopolization at trial: one based on regional markets, and another based on a national market. See, e.g., Docket No. 233-9 at 98 (“If you agree
with Swisher that it’s a national market, then they do
have a significant market share to get dangerous
probability. They can be liable for attempted monopoly. I submit to you that this is kind of the simplest
and the straightforward measures of antitrust damages because it counts all sales around the country.”).
2

If the Court is mistaken in granting judgment as a matter of
law on this basis, the Court would nevertheless grant a new trial
for the reasons stated infra.

35a
Viewing the evidence regarding national antitrust injury in the light most favorable to Trendsettah, and
drawing all reasonable inferences in favor of Trendsettah, a reasonable jury could find causal antitrust
injury resulting from Swisher’s attempt to monopolize
a national market.
Swisher does not directly dispute this. Swisher
instead argues that the entire antitrust verdict must
be rejected because it was inconsistent with the antitrust damages award. Specifically, Swisher argues
that, because the damages award was based on Trendsettah’s national antitrust injury, the jury could not
consistently find both attempted monopolization in
the national market but actual monopolization in the
regional markets. Docket No. 250 at 25-26 (arguing
that the Court may reject the jury verdict “given that
the jury found Swisher liable for actual monopolization and there was never a claim that Swisher monopolized a national market”); Tr. Mot. JMOL Hr’g (June
27, 2016) at 35:24–47:10 (“So if the jury is checking
the box on monopolization and checking the box on attempt, the only way to reconcile those two together is
on the basis that the jury went with Dr. McDuff’s regional markets. That brings us back to the mismatch
between liability theory and the supposed proof of injury and damages.”). The Court rejects this argument. Given the evidence presented at trial, a reasonable jury could find that Swisher attempted to monopolize a national market, but was successful in monopolizing only some regional markets. In that case, the
antitrust damages award was consistent with the attempted monopolization verdict, even if inconsistent
with the actual monopolization verdict. The jury
therefore would have sufficient evidence of attempted
monopolization, notwithstanding Trendsettah’s failed
monopolization claim. Accordingly, the Court denies

36a
Swisher judgment as a matter of law on the attempted
monopolization claim.
2.3.

The Court rejects Swisher’s remaining
three arguments for judgment as a matter
of law.

Swisher raises three additional arguments for
judgment as a matter of law: (1) Swisher had no antitrust duty to deal with Trendsettah; (2) Trendsettah
failed to show antitrust injury; and (3) Trendsettah
failed to show actual or threatened monopoly power.
Docket No. 233 at 11-32. The Court rejects all three
arguments.
2.3.1. Swisher waived its arguments regarding
antitrust duty to deal and failure to establish actual or threatened monopoly power.
“A Rule 50(b) motion for judgment as a matter of
law is not a freestanding motion. Rather, it is a renewed Rule 50(a) motion.” Go Daddy, 581 F.3d at 961.
“Because it is a renewed motion, a proper post-verdict
Rule 50(b) motion is limited to the grounds asserted
in the pre-deliberation Rule 50(a) motion.” Id. This
requirement is strict: if the defendant fails to move
for judgment on an issue in its preverdict motion, the
defendant cannot move for judgment on that same issue in its postverdict motion. Id.; Freund v. Amersham, 347 F.3d 752, 761 (9th Cir. 2003) (“A party cannot raise arguments in its post-trial motion for judgment as a matter of law under Rule 50(b) that it did
not raise in its pre-verdict Rule 50(a) motion.”). Nevertheless, courts must liberally interpret the defendant’s preverdict motion when determining whether
there is waiver. See Go Daddy, 581 F.3d at 961 (“Absent such a liberal interpretation, the rule is a harsh
one.” (internal quotation marks omitted)). Under the

37a
Ninth Circuit’s “liberal” standard for determining
waiver, id., “an inartfully made or ambiguously stated
motion for a directed verdict . . . may constitute a sufficient approximation of a motion for a directed verdict
to satisfy the requirements of Rule 50(b),” Farley
Transp. Co. v. Santa Fe Trail Transp. Co., 786 F.2d
1342, 1347 (9th Cir. 1985) (internal citations and quotation marks omitted)).
At trial, Swisher waived its arguments regarding
antitrust duty to deal and failure to establish actual
or threatened monopoly power because Swisher’s initial motion for judgment as a matter of law argued
only that Trendsettah failed to show antitrust injury
or causal antitrust injury. The trial transcript for
Swisher’s preverdict motion shows the following:


Swisher begins its preverdict motion by stating:
“The basis of Swisher’s motion is that plaintiffs
have not introduced evidence to prove every element of their antitrust claim . . . . Throughout
the presentation, Your Honor, plaintiffs’ casein-chief has been based on really a breach of
contract case and nothing more.”



After discussing potential double recovery on
the antitrust and contract damages, Swisher
continues: “Let me move into the specific elements of the antitrust claim as well.”



Swisher first argues that Trendsettah has
failed to show bare antitrust injury: “With respect to competition, Your Honor, the uncontroverted testimony from [Trendsettah’s] own witnesses is that competition has increased, not
decreased.”

38a


Swisher next argues that Trendsettah has
failed to show anticompetitive conduct: “Moreover, there has been no evidence presented of
tortious interference in this case.”



After arguing that Trendsettah has failed to
show antitrust injury or anticompetitive conduct, Swisher tries to end its preverdict motion:
“Based on all of those lacking elements, . . .
Swisher seeks a directed verdict on count one,
the antitrust claim.”



The Court interjects, challenging Swisher’s assertion that Trendsettah has failed to show anticompetitive conduct: “Well, can’t the antitrust claim, both monopolization and attempt,
be made without demonstrating disparagement?”



After answering the Court, Swisher again tries
to end its preverdict motion: “Based on that argument, Your Honor, Swisher moves for a directed verdict on the antitrust claim.”



On the Court’s invitation, Swisher declines to
raise any additional arguments: “Do you want
to address any of the other claims?” “No, Your
Honor.”



After Trendsettah presents its opposition,
Swisher withdraws its argument regarding anticompetitive conduct and reasserts its initial
argument regarding antitrust injury: “Your
Honor, I’m just going to rely on the arguments I
made with respect to competition. I think that
the testimony was clear that competition increased, not just competitors. I think that is a
fundamental element of the claim, and it was
not established.”

39a


After Swisher ends its preverdict motion, the
Court sua sponte states that Trendsettah may
have insufficient evidence of causal antitrust
injury: namely, antitrust damages resulting
from anticompetitive conduct in regional markets.

Docket No. 243-1 at 2-9 (emphases added). During this exchange, Swisher nowhere mentioned either
an antitrust duty to deal or actual or threatened monopoly power when presenting its initial motion for
judgment as a matter of law. Instead, Swisher specifically argued only that Trendsettah has failed to show
antitrust injury or causal antitrust injury. See, e.g.,
id. at 2 (“Your Honor, I’m just going to rely on the arguments I made with respect to competition. I think
that the testimony was clear that competition increased, not just competitors.” (emphasis added)).
Swisher has therefore waived its arguments regarding an antitrust duty to deal or actual or threatened
monopoly power for purposes of the present motion.
Swisher’s reply argues that it preserved the argument regarding an antitrust duty to deal because
Swisher’s initial motion for judgment as a matter of
law argued that “plaintiffs’ case-in-chief has been
based on a really a breach of contract case and nothing
more.” Docket No. 250 at 16 (quoting Docket No. 2339 at 70-71). The Court rejects this argument. Under
the Ninth Circuit’s “liberal” standards for waiver, the
plaintiff may preserve an argument for a renewed motion for judgment as a matter of law even when the
argument is “inartfully made or ambiguously stated.”
Farley Transp., 786 F.2d at 1347. However, Swisher’s
motion was neither “inartful[]” nor “ambiguous[].” Id.
As the excerpts from the trial transcript make clear,
Swisher specifically argued only that Trendsettah has

40a
failed to show antitrust injury or causal antitrust injury, and not that Swisher had no antitrust to deal or
that its showing of monopoly power failed.
2.3.2. Trendsettah provided sufficient evidence of
antitrust injury.
To show monopolization or attempted monopolization in violation of the Sherman Act, the plaintiff must
show, among other things, “antitrust injury.” SmileCare, 88 F.3d at 783. To show antitrust injury, the
plaintiff must show that defendant’s anticompetitive
conduct harmed competition. Glen Holly, 343 F.3d at
1007-08 (“[I]t is inimical to the antitrust laws to
award damages for losses stemming from acts that do
not hurt competition.” (citing Atlantic Richfield Co. v.
USA Petroleum, Inc., 495 U.S. 328, 334 (1990)). Harm
to competition can include restricted market output,
supracompetitive pricing, and poor product quality.
See Rheumatology Diagnostics Lab., Inc. v. Aetna,
Inc., 2013 WL 5694452, at *15 (N.D. Cal. Oct. 18,
2013) (“Market power can be shown by actual harm to
competition inflicted by the defendant, such as restricted output or supra-competitive prices, or by the
defendant’s dominant market share and barriers to
entry in the relevant market.”) (emphasis added);
Stearns v. Select Comfort Retail Corp., 2009 WL
1635931, at *13 (N.D. Cal. June 5, 2009) (“The antitrust laws are intended to prevent harm to competition manifested as higher prices, lower output, or decreased quality in the products within a defined market.”).
Trendsettah provided sufficient evidence of antitrust injury here. At trial, Trendsettah established
that Swisher failed to timely deliver approximately
200 million cigarillos under the private label agreements. Docket No. 243-4 at 24 (“And there’s a figure

41a
corresponding to that that says 202,309,970. Do you
have an understanding as to what that number refers
to?” “That is the total deficit over time as calculated
by [Swisher’s economic expert.]”). As the Court explained on summary judgment, this evidence is sufficient to establish harm to competition based on restricted market output. Docket No. 99 at 14-15. At
trial, Swisher failed to rebut the evidence of restricted
market output, for example, by showing that total
market output for cigarillos would have remained the
same even if Swisher had timely delivered cigarillos
to Trendsettah. Indeed, that some firms may have entered and that overall market volume may have increased do not negate harm to competition, particularly when viewed from the perspective of still higher
market volumes had Swisher performed. See id.
Without such rebuttal evidence, a reasonable jury
could find that the restricted market output for cigarillos harmed competition. White, 312 F.3d at 1010
(holding that judgment as a matter of law is permissible only when evidence “permits only one reasonable
conclusion, and that conclusion is contrary to the
jury”). The Court therefore denies judgment as a matter of law on this ground.
3.

Motion for New Trial

Swisher also seeks a new trial on both the antitrust and contract claims. Swisher raises four arguments for retrial: (1) the Court erroneously failed to
instruct the jury on Swisher’s antitrust duty to deal;
(2) the Court erroneously instructed the jury on indirect proof of monopoly power; (3) the contract verdict
is contrary to the evidence regarding Trendsettah’s
contract damages; and (4) retrial on the antitrust
claims requires retrial on the contract claims. Docket
No. 233 at 35-39. As explained below, the Court

42a
grants a new trial on the antitrust claims for failure
to instruct the jury on Swisher’s antitrust duty to
deal. The Court denies the motion in all other respects.
3.1.

Legal Standard

Rule 59(a) authorizes courts to grant a new trial
in three circumstances: (1) when the verdict is contrary to the clear weight of the evidence; (2) when the
verdict is based on false or perjurious evidence; and
(3) when necessary to prevent a miscarriage of justice.
Molski v. M.J. Cable, Inc., 481 F.3d 724, 729 (9th Cir.
2007) (quoting Passantino v. Johnson & Johnson Consumer Prods., 212 F.3d 493, 510 n.15 (9th Cir. 2000)).
Unlike with a motion for judgment as a matter of law,
when determining whether the verdict is contrary to
the clear weight of the evidence, the court is not required to view the evidence in the light most favorable
to the nonmoving party. Experience Hendrix LLC v.
Hendrixlicensing.com Ltd., 762 F.3d 829, 842 (9th Cir.
2014). The court must instead independently weigh
the evidence and assess the credibility of the witnesses. Id.
3.2.

The Court grants a new trial on the antitrust claims.

Swisher seeks a new trial on the antitrust claims
based on two errors in the jury instructions: (1) the
Court erroneously failed to instruct the jury on
Swisher’s antitrust duty to deal, and (2) the Court erroneously instructed the jury on indirect proof of monopoly power. Docket No. 233 at 35-36. As explained
below, the Court grants retrial on the antitrust claims
for failure to instruct the jury on Swisher’s antitrust
duty to deal. However, the Court denies retrial for the
incorrect jury instructions regarding indirect proof of

43a
monopoly power because Swisher waived this argument under the invited error doctrine.
3.2.1. The Court’s failure to instruct the jury
on Swisher’s antitrust duty to deal was
harmful error.
Swisher first challenges the Court’s failure to instruct the jury regarding Swisher’s antitrust duty to
deal. Docket No. 233 at 35-36. “Harmless error applies to jury instructions in civil cases.” Kennedy v. So.
Cal. Edison Co., 268 F.3d 763, 770 (9th Cir. 2001). Under the harmless error standard, “[a]n error in instructing the jury in a civil case requires reversal unless the error is more probably than not harmless.”
Caballero v. City of Concord, 956 F.2d 204, 206 (9th
Cir. 1992). In the Ninth Circuit, courts “presume prejudice where civil trial error is concerned.” Galdamez
v. Potter, 415 F.3d 1015, 1025 (9th Cir. 2005). Accordingly, the Ninth Circuit uses a two-step burden-shifting analysis on harmless error review. First, the moving party must show that the jury instruction was incorrect. Id. Second, if the moving party sustains its
initial burden, “the burden shifts to the [non-moving
party] to demonstrate ‘that it is more probable than
not that the jury would have reached the same verdict’
had it been properly instructed.’” Id. (quoting Obrey v.
Johnson, 400 F.3d 691, 701 (9th Cir. 2005)). Here, the
Court’s failure to instruct the jury regarding
Swisher’s antitrust duty to deal was not harmless error.
First, Swisher has sustained its initial burden to
show that the Court erred by failing to instruct the
jury regarding Swisher’s antitrust duty to deal. To see
why, the Court must first review antitrust law regarding a business’s duty to deal with competitors. Under
antitrust law, businesses generally have no duty to

44a
deal with competitors. High Tech. Careers v. San Jose
News, 996 F.2d 987, 990 (9th Cir. 1993) (citing Eastman Kodak Co. v. Image Technical Services, Inc., 504
U.S. 451, 483 n.32 (1992)). Businesses therefore are
“free to choose the parties with whom they will deal,
as well as the prices, terms, and conditions of that
dealing.” Pac. Bell Tel. Co. v. Linkline Commc’ns,
Inc., 555 U.S. 438, 448 (2009) (citing United States v.
Colgate & Co., 250 U.S. 300, 307 (1919)). As a result,
businesses typically do not face antitrust liability for
their unilateral refusal to deal with their competitors.
See In re Adderall XR Antitrust Litig., 754 F.3d 128,
135 (2d Cir. 2014), as corrected (June 19, 2014) (“Nor
do business disputes implicate the antitrust laws
simply because they involve competitors.”). This right
is not absolute, however. Aspen Skiing v. Aspen Highlands Skiing Corp., 472 U.S. 585, 601 (1985) (“[T]he
high value that we have placed on the right to refuse
to deal with other firms does not mean that the right
is unqualified.”). “Under certain circumstances, a refusal to cooperate with rivals can constitute anticompetitive conduct and violate § 2.” Verizon Commc’ns
Inc. v. Law Offices of Curtis V. Trinko, LLP, 540 U.S.
398, 408 (2004). For example, businesses may be liable for antitrust violations when there are no legitimate business reasons for their refusal to deal. See
Eastman Kodak, 504 U.S. at 483 n.32 (“But such a
right is not absolute; it exists only if there are legitimate competitive reasons for the refusal.” (citing Aspen Skiing, 472 U.S. at 602-605)). In these cases, federal courts will find that businesses have a duty to
deal with competitors when (1) the business unilaterally terminates a voluntary course of dealing spanning several years, sacrificing short-term profits or (2)
the business refuses to provide competitors with products that are already sold in a retail market to other

45a
customers. Trinko, 540 U.S. at 409-10; see also MetroNet Servs. Corp. v. Qwest Corp., 383 F.3d 1124,
1132-33 (9th Cir. 2004) (analyzing the scope of the antitrust duty to deal under Aspen Skiing and Trinko);
Safeway Inc. v. Abbott Labs., 761 F. Supp. 2d 874,
893-94 (N.D. Cal. 2011) (same). Even with these exceptions, however, courts have been “very cautious” in
imposing antitrust liability for purely unilateral conduct. Trinko, 540 U.S. at 408. Antitrust liability for
purely unilateral conduct therefore remains “rare.”
Linkline, 555 U.S. at 448.
At trial, Trendsettah’s claims for monopolization
and attempted monopolization were based solely on
Swisher’s breach of the private label agreements.
Trendsettah’s antitrust claims thus do not trigger antitrust liability on their face. Adderall, 754 F.3d at 135
(“The mere existence of a contractual duty to supply
goods does not by itself give rise to an antitrust ‘duty
to deal.’”). Accordingly, to impose antitrust liability
on Swisher, the jury was required to first determine
whether, as a threshold issue, Swisher properly refused to deal with Trendsettah regarding the private
label agreements. Trinko, 540 U.S. at 408. The
Court’s failure to instruct the jury regarding
Swisher’s duty to deal was therefore error.
Second, Trendsettah has not met its burden to
show that the Court’s failure to give the refusal-todeal instruction was harmless. In its opposition, at
the hearing, and in supplemental briefing, 3 Trendsettah raised numerous arguments that, even if the
3

After the hearing, the Court ordered supplemental briefing
to determine whether the jury’s finding of specific intent on
Trendsettah’s attempted monopolization claim rendered harmless the Court’s failure to give the refusal-to-deal instruction on
the attempted monopolization claim. Docket No. 253. As Swisher

46a
refusal to-deal instruction was given, the jury still
would have found for Trendsettah. These arguments
are principally based on three events from trial:
(1) the jury found that Swisher had no legitimate business reason for its alleged anticompetitive conduct
and acted with the specific intent to create a monopoly;4 (2) Swisher’s trial counsel expressly eschewed arguing jury instructions at closing argument; and (3)
the jury deliberated for less than three hours before
reaching a verdict for Trendsettah on all claims. Mot.
JMOL Hr’g Tr. (June 27, 2016) at 63-65, 68-69; see
also Docket No. 258 at 8.
However, none of these arguments addresses the
fundamental issue of prejudice here: the Court’s failure to provide the refusal-to-deal instruction prejudiced Swisher because, without the instruction, the
jury had no basis to determine whether Swisher’s ordinary contract breach also constituted anticompetitive conduct under the antitrust law’s special rules
governing breach of contract claims between competitors. See generally Aspen Skiing, 472 U.S. at 600-05.
correctly noted in supplemental briefing, anticompetitive conduct cannot be inferred from evidence of anticompetitive intent
alone. See William Inglis & Sons Baking Co. v. ITT Cont’l Baking
Co., 668 F.2d 1014, 1028 (9th Cir. 1981) (“[D]irect evidence of intent alone, without corroborating evidence of conduct, cannot
sustain a claim of attempted monopolization.”) (collecting cases).
4

Ostensibly, the jury’s findings were based on evidence presented at trial that (1) Swisher’s anticompetitive conduct began
in the fourth quarter of 2012, twenty months into the parties’
course of dealing; (2) Swisher entered into the private label
agreements only after senior management learned that Trendsettah had approached its competitors with the same manufacturing proposal; and (3) Swisher sacrificed short-term profits by
refusing to both fill more profitable orders for unflavored cigarillos and transfer production of cigarillos to their Dominican Republic facilities. Docket No. 242 at 14-16, 28.

47a
As discussed supra, under these special rules, businesses generally have no duty to deal with their competitors, and thus typically face no antitrust liability
for their breach of contract. Id. That the jury may
have found specific intent under the Court’s instructions, see Docket No. 208 at 49-50, 54-55, is no assurance that it would done so had it considered the special rules governing a monopolist’s refusal to deal, and
indeed the Court is skeptical that it would have done
so. The Court’s failure to instruct the jury on this
unique aspect of antitrust law therefore prejudiced
Swisher. Moreover, the Court’s failure to provide the
refusal to deal instruction effectively prohibited
Swisher from arguing its refusal-to-deal defense at
closing argument, thus doubly prejudicing Swisher’s
defense. Given this prejudice to Swisher, the Court
cannot say that its failure to provide the refusal-todeal instruction was harmless error. The Court therefore grants a new trial on the attempted monopolization claim and a conditional new trial on the monopolization claim.
3.2.2. Swisher waived its argument regarding
the Court’s instructions on indirect
proof of monopoly power.
Swisher next argues that the Court incorrectly instructed the jury on indirect proof of monopoly power:
specifically, that the Court incorrectly instructed the
jury regarding barriers to entry and the entry and exist of competitors in the relevant market. Docket No.
233 at 36. Swisher waived this argument under the
invited error doctrine.
Under the invited error doctrine, courts will not
review challenges to jury instructions when the moving party itself proposed the challenged jury instructions. United States v. Hui Hsiung, 778 F.3d 738, 747-

48a
48 (9th Cir. 2015) (“Because the defendants were the
ones who proposed the instruction in the first place,
they cannot now claim that giving the instruction was
error.”); United States v. Baldwin, 987 F.2d 1432,
1437 (9th Cir. 1993) (“Where the defendant himself
proposes the jury instruction he later challenges on
appeal, we deny review under the invited error doctrine.”); see also United States v. Lemusu, 135 F.
App’x 52, 53 (9th Cir. 2005) (unpublished) (“As Herman jointly proposed the relevant jury instructions,
his argument is also barred by the invited error doctrine.” (citing Baldwin, 987 F.2d at 1437)); Yates v.
GunnAllen Fin., 2006 WL 1821194, at *1 (N.D. Cal.
June 30, 2006) (“Defendants cannot now claim that
the jury was inadequately instructed on certain punitive damage issues because the instructions given by
the court were either instructions submitted by defendants or joint instructions to which defendants had
agreed.”). Here, Swisher and Trendsettah jointly proposed the challenged jury instructions on indirect
proof of monopoly power. Compare Docket No. 171 at
52 (Trendsettah’s proposed jury instructions) with id.
at 58 (Swisher’s proposed jury instructions). This argument is therefore waived under the invited error
doctrine.
3.3.

The Court denies Swisher’s request for a
new trial on the contract claims.

The Court now turns to the contract claims.
Swisher makes two arguments for retrying the contract claims: (1) the contract verdict was inconsistent
with the evidence of Trendsettah’s contract damages,
and (2) retrial on the antitrust claims requires retrial
on the contract claims. Docket No. 233 at 36-39. The
Court rejects both arguments.

49a
3.3.1. The contract verdict was consistent
with the evidence of Trendsettah’s contract damages.
Trendsettah brings its contract claims under Florida law. Docket No. ¶¶ 60-70. In Florida, a person
injured by a breach of contract or bad faith “is entitled
to recover a fair and just compensation that is commensurate with the resulting injury or damage.” MCI
Worldcom Network Servs., Inc. v. Mastec, Inc., 995 So.
2d 221, 223 (Fla. 2008) (citing Winn & Lovett Grocery
Co. v. Archer, 171 So. 214 (Fla. 1936); Broxmeyer v.
Elie, 647 So. 2d 893 (Fla. Dist. Ct. App. 1994)). “A
plaintiff, however, is not entitled to recover compensatory damages in excess of the amount which represents the loss actually inflicted by the action of the defendant.” Id. (citing 17 Fla. Jur. 2d Damages §§ 3-7
(2004)).
Swisher argues that the Court must grant a new
trial on contract damages because the contract damages award exceeded Trendsettah’s contract losses.
Docket No. 233 at 36-37. Swisher’s argument is as
follows. The second private label agreement imposed
monthly caps on the number of cigarillos that Swisher
was required to supply. Docket No. 233-2 at 4-5 art.
3.1(c). Accordingly, Swisher could not be held liable
in contract for unfilled orders that exceeded the
monthly caps. See MCI Worldcom, 995 So. 2d at 223
(barring compensatory damages that exceed “the loss
actually inflicted by the action of the defendant”).
However, the jury incorrectly awarded damages for
unfilled orders that exceeded the monthly caps. The
contract damages award was based on the Good Times
damages model, which calculated contract damages
using the deficit figure from Swisher’s economic expert, Dr. Alan Cox (“Cox”). See Trial Tr. (Mar. 18,

50a
2016) at 112:14-15 (“Where was the source for the
data for Slide 2 here?” “These data come from the expert report of Dr. Cox.”). But Cox’s deficit figure did
not exclude unfilled orders that exceeded the monthly
caps; the figure instead included all unfilled orders regardless of whether the order exceeded the monthly
caps. Accordingly, Swisher concludes, the jury improperly awarded contract damages for unfilled orders that exceeded the monthly caps.
The Court rejects this argument. At trial, Trendsettah presented two contract damages models: the
logistic model and the Good Times model. The logistic
model calculated that contract damages were
$17,656,350, Trial Tr. (Mar. 18, 2016) at 175:19 21,
and the Good Times model calculated that contract
damages were $9,062,679, Docket No. 243-4 at 44-45.
The jury awarded Trendsettah $9,062,679 in contract
damages, the same amount calculated under the Good
Times model. Docket No. 207 at 3. This amount is
slightly higher than an award under a “corrected”
Good Times model, 5 but significantly lower than an
award under the logistic model. The jury’s acceptance
of the Good Times model could reflect its discounting
of excess sales in the logistic model; plainly, there is a
5

In Swisher’s view, the Good Times model must exclude unfilled orders that exceeded the monthly caps. After an independent review of Trendsettah’s monthly deficit figures for the second
private label agreement, see Pls.’ Trial Ex. 137 at 1 (“Revised Ex.
10.a to Cox Report”), the Court determines that excluding excess
orders would reduce the total deficit figure from 202,309,970 unfilled orders to 182,603,170 unfilled orders. This is a difference
of 19,706,800 unfilled orders, or 9.74% of the total deficit figure.
All such unfilled orders occurred in February 2013, the first
month of the second private label agreement. Id. After February
2013, there were no unfilled orders that exceeded the monthly
caps. Id.

51a
reduction. But apart from the contract damages figure itself, there is no evidence, in the jury verdict or
elsewhere, establishing that the jury did that. See id.
(“[W]hat damages do you find by a preponderance of
the evidence that [Trendsettah] has sustained as a result of Swisher’s breach of contract(s) with [Trendsettah] and/or it [sic] breach of the implied covenant
of good faith and fair dealing in its contractual dealings with [Trendsettah]?” “$9,062,679.”). Without
such evidence, the Court cannot find that contract
damages were “contrary to the clear weight of the evidence.” Molski, 481 F.3d at 729. The Court therefore
declines to retry the contract claims on this ground.
3.3.2. Retrying the antitrust claims does not
require retrying the contract claims.
As a general rule, courts may order a partial retrial that is limited to specific issues. However, courts
have recognized an exception to this general rule:
when the issue to be retried is “[in]distinct and
[in]separable” from another issue, the court must order full retrial on both issues. Gasoline Prods. Co.,
Inc. v. Champlin Refining Co., 283 U.S. 494, 500
(1931) (“Where the practice permits a partial new
trial, it may not properly be resorted to unless it
clearly appears that the issue to be retried is so distinct and separable from the others that a trial of it
alone may be had without injustice.”). Courts typically grant a full retrial under this exception in two
circumstances: (1) when an error on one issue affected
the jury verdict on another issue, and (2) when full retrial is necessary to avoid confusion and uncertainty
with the jury on retrial. Morrison Knudsen Corp. v.
Fireman’s Fund Ins. Co., 175 F.3d 1221, 1255-56 (10th
Cir. 1999) (citing National R.R. Passenger Corp. v.
Koch Indus., Inc., 701 F.2d 108, 110 (10th Cir. 1983);

52a
11 Charles Alan Wright & Arthur R. Miller, Fed.
Practice & Procedure § 2814 at 154-56 (2d. ed. 1995);
Gasoline Prods., 283 U.S. at 500)). Neither circumstance applies here.
First, there is no evidence that the antitrust verdict affected the contract verdict. Although the antitrust and contract claims are based on Swisher’s
breach of the private label agreements, both categories of claims involve substantially different elements
requiring substantially different kinds of evidentiary
proof. For example, to find monopolization, the jury
was required to find, in addition to breach of the private label agreements, that (1) Swisher possessed “monopoly power” in certain regional non-tipped cigarillo
markets; (2) Swisher’s breach constituted willful acquisition or maintenance of monopoly power in these
markets; and (3) Swisher’s breach caused antitrust injuries. SmileCare, 88 F.3d at 783 (quoting Pacific Express, Inc. v. United Airlines, Inc., 959 F.2d 814, 817
(9th Cir. 1992)). Proving each element in turn required proof of multiple sub-elements. Again, for example, to show that Swisher possessed “monopoly
power,”
Trendsettah was required to provide either (1) direct evidence of monopoly power through restricted
market output and supracompetitive pricing or (2) indirect evidence of monopoly power through (a)
Swisher’s dominant share of the various regional nontipped cigarillo markets and (b) significant barriers to
entry in those markets. Rebel Oil, 51 F.3d at 1434
(citing FTC v. Indiana Fed’n of Dentists, 476 U.S. 447,
460-61 (1986); Ryko Mfg. Co. v. Eden Serv., 823 F.3d
1215, 1232 (8th Cir. 1987); Ball Memorial Hosp. Inc.
v. Mutual Hosp. Ins., Inc., 784 F.2d 1325, 1335 (7th
Cir. 1986)). This required the jury to consider, among

53a
other things, complex economic evidence regarding restricted market output, supracompetitive pricing, and
barriers to entry in regional tobacco product markets.
See Rebel Oil, 51 F.3d at 1434.
Trendsettah’s contract claims required no such
showing. To show breach of contract under Florida
law, Trendsettah need only show that (1) Swisher and
Trendsettah entered into the private label agreements; (2) Swisher breached the private label agreements; and (3) the breach damaged Trendsettah.
Friedman v. New York Life Ins. Co., 985 So. 2d 56, 58
(Fla. Dist. Ct. App. 2008). But unlike with the antitrust claims, the jury did not need to consider complex
economic evidence regarding regional non-tipped cigarillo markets to determine whether Swisher
breached the private label agreements. Instead, the
jury needed only to review the terms of the private label agreements and evaluate Swisher’s performance
under those terms. See id. Given the substantial differences between the contract and antitrust claims,
the Court cannot find that the antitrust verdict improperly influenced or affected the original contract
verdict. See Rush v. Scott Specialty Gases, Inc., 113
F.3d 476, 487 (3d Cir. 1997) (ordering retrial on sexual
harassment claim when inclusion of time-barred sex
discrimination claim “infected the entire verdict”).
Second, and for substantially the same reasons,
there is no evidence that retrying the antitrust claims,
while preserving the contract claims, would result in
“confusion and uncertainty” with the jury on retrial.
Morrison Knudsen, 175 F.3d at 1256. The fact that it
was verbally conceded that Swisher’s failure to deliver
cigarillos was breach only underscores the Court’s
conclusion. Accordingly, the Court denies Swisher’s

54a
motion for a new trial on the contract claims on this
ground.
4.

Conclusion

For the reasons stated above, the Court grants in
part and denies in part Swisher’s renewed motion
for judgment as a matter of law as follows:
(1)
The Court grants Swisher judgment as
a matter of law on the monopolization claim; but
(2)
The Court denies Swisher judgment as
a matter of law on the attempted monopolization
claim.
The Court grants in part and denies in part
Swisher’s motion for a new trial as follows:
(1)
The Court grants Swisher a new trial on
the attempted monopolization claim and a conditional
new trial on the monopolization claim; but
(2)
The Court denies Swisher a new trial on
the contract claims.
IT IS SO ORDERED.

55a

APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION
TRENDSETTAH USA, INC. and
TREND SETTAH, INC.,
Plaintiffs,
v.

Case No. 8:14CV-01664-JVS
(DFMx)
JUDGMENT

SWISHER INTERNATIONAL,
INC,
Defendant.
This action came on for trial on March 15, 2016,
in Courtroom 10C of the above-entitled Court, the
Honorable James V. Selna, United States District
Judge, presiding. Plaintiffs Trendsettah USA, Inc.
and Trend Settah, Inc. (“Plaintiffs”) appeared by their
attorneys, Mark Poe, Randolph Gaw, and Victor Meng
of Gaw | Poe LLP, and Defendant Swisher International, Inc. (“Defendant”) appeared by its attorneys,
Michael Marsh, Ryan Roman, Kimberly Lopez, and
Jennifer Glasser of Akerman, LLP.
A jury of seven persons was impaneled and sworn
to try the action. After an eight-day trial and after
deliberations, the jury returned a Special Verdict in
favor of Plaintiffs Trendsettah USA, Inc. and Trend
Settah, Inc. (“Plaintiffs”), and against Defendant
Swisher International, Inc. (“Defendant”), on each of
the four causes of action tried: (1) breach of contract;

56a
(2) breach of the covenant of good faith and fair dealing; (3) violation of Section 2 of the Sherman Act by
creating or maintaining a monopoly through anticompetitive practices; and (4) violation of Section 2 of
the Sherman Act by attempting to create or maintain
a monopoly through anti-competitive practices. On
Plaintiffs’ claims for breach of contract and breach of
the covenant of good faith and fair dealing, the jury
awarded $9,062,679.00. On Plaintiffs’ claims for monopoly and attempted monopoly under Section 2 of the
Sherman Act, the jury awarded $14,815,494.00. The
contents of the jury’s Special Verdict, which was filed
on March 30, 2016, is hereby incorporated by reference as if set forth fully herein.
Based upon the jury’s Special Verdict, the Court
NOW ENTERS JUDGMENT AS FOLLOWS:
1. Judgment is entered in favor of Plaintiffs and
against Defendant on all of Plaintiffs’ claims so tried
before the jury;
2. As to Plaintiffs’ claim for violation of Florida
Antitrust Law, Fla. Stat. § 542.19, judgment is entered in favor of Defendant and against Plaintiffs;
3. Pursuant to a stipulation made on the record by
the parties, because the amount of the antitrust damages exceeds the amount of the contract damages
awarded by the jury, the contract damages are reduced to zero;
4. Plaintiffs shall recover the antitrust damages
awarded by the jury, which is automatically trebled to
$44,446,482.00 pursuant to Section 4 of the Clayton
Act, 15 U.S.C. § 15(a); and
5. Post-judgment interest shall run on this judgment in accordance with 28 U.S.C. § 1961.

57a
6. As the prevailing parties, Plaintiffs shall recover their costs and reasonable attorney fees from
Defendant to the extent ordered by the Court.
IT IS SO ORDERED
Dated: April 14, 2016

____________
Hon. James V. Selna
United
States
District
Court Judge

58a
APPENDIX E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Trendsettah USA, Inc.,
et al,
Plaintiffs,

Case No. SACV14-01664
JVS (DFMx)
August 19, 2019

v.
Swisher International
Inc,

The Honorable
James V. Selna, U.S.
District Court Judge

Defendants.
Proceedings:

(IN CHAMBERS) Order Regarding Motion for Relief from
Judgment or for Expedited
Discovery, Motion to Stay, and
Motion for Summary Adjudication

The Court, having been informed by the parties in this action that they submit on the
Court’s tentative ruling previously issued,
hereby rules in accordance with the tentative
ruling as follows:
Defendant Swisher International, Inc. (“Swisher”)
filed a motion for relief from judgment pursuant to
Federal Rules of Civil Procedure 60(b)(2), 60(b)(3),
and 60(d), or in the alternative, for an order accelerating discovery into Plaintiffs’ Trendsettah USA, Inc.
and Trend Settah International, Inc. (collectively,

59a
“TSI”) alleged misconduct. Mot., Docket No. 377. TSI
filed an opposition. Opp’n, Docket No. 397. Swisher
replied. Reply, Docket No. 414. With leave of the
Court, TSI filed a sur-reply. Sur-Reply, Docket No.
421-1.
Swisher also moved to stay execution of any judgment against it in this case and related discovery under Federal Rule of Civil Procedure 62 until five business days after the filing of an order resolving the
above motion for relief from judgment or, if later, five
business days after notice of entry of any judgment
entailed by such resolution. Docket No. 380. TSI opposed. Docket No. 404. Swisher replied. Docket No.
418.
Lastly, TSI moved for summary adjudication as to
Swisher’s supersedeas bond.
Docket No. 364.
Swisher opposed. Docket No. 372. Swisher replied.
Docket No. 386.
For the following reasons, the Court grants the
motion for relief from judgment. Therefore, the motions to stay and for summary adjudication are denied as moot.
I. BACKGROUND
The background of this case is familiar to the parties and detailed in the Court’s prior orders. Docket
Nos. 262, 274, 340; see also Docket No. 349. The Court
recites only those facts necessary to this order.
A.

Procedural History

The parties are manufacturers of cigars and other
related products who entered into multiple supply
agreements between 2011 and 2014. See Docket No.
262 at 1–2. In 2014, TSI filed this action against
Swisher, initially alleging nine causes of action: (1)

60a
monopolization and attempted monopolization in violation of the Sherman Act, 15 U.S.C. § 2; (2) monopolization and attempted monopolization in violation of
Florida Antitrust Law, Fl. Stat. § 542.19; (3) breach of
contract; (4) breach of the implied covenant of good
faith and fair dealing; (5) trade libel; (6) tortious interference with contract; (7) intentional interference
with prospective business relationships; (8) negligent
interference with prospective business relationships;
and (9) unfair competition in violation of the California Unfair Competition Law, Cal. Bus. & Prof. Code §
17200 et seq. Docket No. 1.
In May 2015, the Court dismissed the state law
claims for negligent interference and unfair competition for failure to state a claim. Docket No. 40. In
January 2016, the Court dismissed the state law
claims for trade libel, tortious interference with contract, and intentional interference with prospective
business relationships on summary judgment. Docket
No. 99. The Court then scheduled trial on the remaining antitrust and contract claims for March 2016.
On August 17, 2016, following a jury verdict for
TSI on its antitrust and breach of contract claims, the
Court granted Swisher’s motion for a new trial as to
TSI’s antitrust claims, but not its contract claims.
Docket No. 262. The Court also granted Swisher judgment as a matter of law as to TSI’s monopolization
claim, but not as to its attempted monopolization
claim. Id. Following the Ninth Circuit’s decision in
Aerotec Int’l Inc. v. Honeywell Int’l, Inc., 836 F.3d
1171 (9th Cir. 2016), the Court reconsidered its earlier
decision denying Swisher summary judgment on TSI’s
antitrust claims, and granted Swisher summary judgment as to those claims. Docket No. 274.

61a
Subsequently, the Ninth Circuit reversed the
Court’s grant of summary judgment to Swisher as to
its antitrust claims, its grant of a new trial to Swisher
as to the attempted monopolization claim, and its
grant of judgment as a matter of law to Swisher as to
the monopolization claim. Docket No. 349.
On July 8, 2019, TSI filed motions for attorneys’
fees, expenses, and post-judgment interest, and for
summary judgment as to Swisher’s supersedeas bond.
Docket Nos. 363, 364. On July 22, 2019, Swisher filed
motions for relief from judgment or for expedited discovery, and to stay the proceedings. Docket Nos. 377,
380. The Court now turns to these motions.
B.

Relevant Factual Background

On April 12, 2019, the Southern District of California unsealed the criminal indictment of Akrum Alrahib (“Alrahib”) in connection with his arrest. See
Declaration of Minae Yu, Docket No. 379, Ex. A. Alrahib is the founder, chief executive officer of TSI, and
one of its principals/shareholders. Docket No. 162 at
3. He also oversees the day-to-day operations of TSI.
Id.
The federal excise tax on imported cigarillos during the relevant time period was 52.75%. See Docket
No. 377 at 4 n.3. According to the indictment, TSI
fraudulently avoided paying federal excise taxes on
cigarillos it imported from the Dominican Republic
through its importer, Havana 59, for a period between
2013 and 2015. Yu Decl., Ex. A; see also Declaration
of Ryan Roman, Docket No. 378, Ex. K at Response
No. 22. The indictment lists a number of allegedly falsified invoices which marked down the price TSI was
actually paying for cigars to avoid federal excise taxes.
Yu Decl., Ex. A. The indictment further alleges that,

62a
in reality, TSI did not purchase cigarillos from Havana 59; instead, it purchased them from Productos
del Tobacco (“Productos”) at prices approximately 3 to
4 times the sales price reported to the government by
wiring money from TSI’s bank account in California
to Productos’ bank account. Id.; see also Yu Decl., Ex.
G at Attachment C-6. The government also alleges
that TSI received over $700,000 from Havana 59 as
kickbacks in the form of payroll checks for TSI’s employees and free cigar manufacturing equipment that
TSI sent to Products. See id., Ex. A at 7, Ex. B at 7.
The government is seeking a forfeiture judgment of
$9,914,921 against property in which Alrahib has an
interest allegedly traceable to these violations. Id., Ex.
A at 14.
In a voluntary video-recorded interview conducted
by Internal Revenue Service (“IRS”) and Alcohol and
Tobacco Tax and Trade Bureau (“ATTAB”) agents on
May 11, 2017, Alrahib made a number of admissions
regarding his and Bryant’s participation in a tax evasion scheme. Relevant portions of the interview are
reproduced below:
ALRAHIB: Okay. That’s the time that
Tony Bryant approached me and says,
look, I could import it for you, and I could
save you money, and then I’ll kick you
back the money on the side. Okay.
....
AGENT 2: On him giving you kickbacks
on the 2 to 3 million dollars –
ALRAHIB: Yes.
AGENT 2: Just to be clear, the kickbacks were from federal excise taxes
evaded.

63a
ALRAHIB: That he evaded, yes. Yes.
....
ALRAHIB: Well, he was the importer .
But was I aware that he was evading federal excise tax? Yes, if that’s what you
want me to say.
AGENT 1: Yeah.
ALRAHIB: I mean, that’s what it was.
Everybody knew that. . . . . AGENT 1:
. . . [W]hat was your part in that?
ALRAHIB: My part in what? In -AGENT 1: With the activity related to
Tony [Bryant]’s importation.
ALRAHIB: My part is, as the cheaper
you could get it for me, Tony, and the
more I could save on the back end, thank
you very much.
....
AGENT 1: What was it that you and
Tony were doing, specifically, that allowed the product to, you know, be available cheaper? What was it that you were
doing specifically to reduce your burden,
your financial burden?
ALRAHIB: I wasn’t doing anything. I
wouldn’t know how Tony was breaking
up the importation tax. He would just
send me an email of how his BS
breakdown was and then give us the
invoice. That was it. And then from
that invoice of the total amount, I was

64a
supposed to take back 40, 50 percent,
....
AGENT 1: Okay. And then, so he would
then have money to send back to you, to
kick back to you, correct?
ALRAHIB: Yes.
AGENT 2: All right. So Tony invoices
[ALRAHIB’s company]. And you send
him 36 grand. Of that 36 grand, your understanding was, you’re getting half of it
back?
ALRAHIB: I’m supposed to get 30 to 40
percent of that, of that money.
AGENT 2: And it’s supposed to come
back to you?
ALRAHIB: Yes. And however you break
it down, however you do it, good luck to
you. That’s great. Give me my rebate.
AGENT 2: No, I got -- let me figure -but the rebate, though, is based on
him evading federal excise tax.
ALRAHIB: Yes.
AGENT 2: Okay.
AGENT 1: Thank you.
ALRAHIB: Yes, it is. Of course it is. I
don’t know what else to say, but I know
I’m screwing – I mean, it is. I mean, yes.
We all know that.
....
AGENT 2: So Tony’s scheme, there’s -putting someone in between, but Tony --

65a
The scheme you worked with Tony, he
took the extra step of instead of just putting someone in between -- ALRAHIB: I
didn’t work the scheme with Tony. I rode
Tony’s train because his scheme was already moving. And then Tony said, you
want to come and save money riding my
train? Then I realized it’s a scheme.
Then when I saw his scheme, I said,
wait a minute, I need to benefit from
your scheme.
....
ALRAHIB: . . . let’s say, for example,
[the manufacturer] was charging me at
the time 6 or 7 cents a stick, but Tony
[Bryant] was claiming 2 cents a stick, so
he never had extra money. He never had
extra money because he never put the actual dollar amount that [the manufacturer] was charging us.
....
AGENT 2: Tony [Bryant] never charged
Trendsettah, being you, enough money
to cover the actual cost of the product?
ALRAHIB: No. Of course not. It was
all a game.
AGENT 2: No.
ALRAHIB: This water costs a dollar,
right. But when Tony [Bryant] -- he’s the
importer, right?
AGENT 1: Yeah.

66a
ALRAHIB: He’s showing that this water
is 30 cents. And then from the 30 cents,
he’s supposed to give me 10 cents.
Yu Decl., Ex. B at 3–5, 10–11 (quoting interview transcript) (emphasis in prosecutors’ reproduction). Bryant pled guilty to related fraud and tax-evasion
charges in 2016, and was sentenced to seven years in
prison. See Yu Decl., Exs. D–F. Alrahib’s criminal
trial is scheduled to commence on December 16, 2019.
Id., Ex. C.
C.

Evidentiary Objections and Requests for
Judicial Notice

On Rule 60 motions, “[t]he proffered evidence
must be admissible.” Winding v. Wells Fargo Bank,
2012 WL 603217, at *9 (E.D. Cal. Feb. 23, 2012), aff’d
706 F. App’x 918 (9th Cir. 2017); Norris v. F.B.I., 1990
WL 134276, at *2 (9th Cir. Sept. 18, 1990) (same).
Furthermore, “[w]hen alleging a claim of fraud on the
court, the plaintiff must show by clear and convincing
evidence that there was fraud on the court, and all
doubts must be resolved in favor of the finality of the
judgment.” Weese v. Schukman, 98 F.3d 542, 552
(10th Cir. 1996) (emphasis added).
TSI objects to the Court’s consideration of either
the indictment or the government’s brief appealing
the magistrate’s grant of bail to Alrahib, which contains passages from Alrahib’s interview transcript
with IRS and ATTAB agents. Docket No. 403; see also
Yu Decl., Exs. A, B.
TSI objects to the indictment on the ground that
it is well-established that an indictment is not evidence. See United States v. Ramirez, 710 F.2d 535,
545 (9th Cir. 1983) (“[An] indictment is not evidence
against the accused and affords no inference of guilt

67a
or innocence.”). The Court agrees. Therefore, the
Court will not consider the facts contained in the indictment for their truth. However, the Court takes
judicial notice of the existence of the indictment and
its contents as a public record, the accuracy of which
cannot reasonably be questioned.
TSI objects to the government’s brief appealing
the magistrate’s grant of bail to Alrahib, arguing (1)
that statements in a brief are not evidence, and (2)
that the evidence is inadmissible hearsay. Docket No.
403 at 2. However, admissions of a party opponent
are not hearsay and are admissible. Fed. R. Evid.
801(d)(2). Moreover, the record of the interrogations
is also admissible as a public record, resolving concerns about a potential second layer of hearsay as to
the government’s filing itself. Mike’s Train House,
Inc. v. Lionel, L.L.C., 472 F.3d 398, 412 (6th Cir. 2006)
(affirming admission of interrogation transcripts as
public records and statements against declarant’s interests). Therefore, TSI’s objection to the Court’s consideration of Alrahib’s admissions in his interview
with government agents is overruled because Alrahib’s conduct is imputable to TSI, and thus his confession contained in the brief is admissible as an admission of a party opponent. Fed. R. Evid. 801(d)(2); see
also Fed. R. Evid. 803(5), 803(8), and 804(b)(3).
TSI also objects to Exhibit A to the Supplemental
Declaration of Minae Yu, Docket Nos. 415, 415-1. The
document is a transcript of an April 30, 2019 hearing
in the matter of USA v. Akrum Alrahib. TSI argues
that the document, which contains statements of government employees characterizing what Alrahib supposedly told other government employees, constitutes
double hearsay. Docket No. 419 at 1. The Court

68a
agrees. This evidence is distinct from direct statements from Alrahib quoted from an interview transcript. Therefore, the objection is sustained.
Swisher also filed evidentiary objections. Docket
No. 416. Because there are 39 separate objections, the
Court declines to address each one-by-one. To the extent the Order cites evidence to which Swisher objects,
the objection is impliedly overruled. To the extent the
Court does not rely on the evidence submitted, the
Court declines to rule on the objections.
Finally, TSI filed a request that the Court take judicial notice of (1) The Order Denying Government’s
Motion for Pretrial Detention, filed in United States
v. Alrahib, in the United States District Court for the
Southern District of Florida, No. 1:19-cr-20165-RS, on
May 1, 2019, as Docket Entry 17; (2) Swisher’s Motion
to Stay the Mandate, filed with the Ninth Circuit in
the matter of Trendsettah USA, Inc., et al. v. Swisher
International Inc., No. 1656823, on April 23, 2019, as
Docket Entry 87; and (3) Swisher’s Opposition to Lift
Stay of the Mandate, filed with the Ninth Circuit in
the matter of Trendsettah USA, Inc., et al. v. Swisher
International Inc., No. 16-56823, on May 9, 2019, as
Docket Entry 90. RJN, Docket No. 402, Exs. A–C. The
Court may take judicial notice of matters of public record, Lee v. City of Los Angeles, 250 F.3d 668, 689 (9th
Cir. 2001), including related filings from another case.
Headwaters Inc. v. U.S. Forest Service, 399 F.3d 1047,
1051 n.3 (9th Cir. 2005). Therefore, TSI’s request for
judicial notice is granted.

69a
II.
A.

LEGAL STANDARDS

Federal Rules of Civil Procedure 60(b)(2)
and (b)(3)

“[T]he court may relieve a party or its legal representative from a final judgment, order, or proceeding
[based on] . . . newly discovered evidence that, with
reasonable diligence, could not have been discovered
in time to move for a new trial under Rule 59(b).” Fed.
R. Civ. P. 60(b)(2). To prevail, “the movant must show
the evidence (1) existed at the time of the trial, (2)
could not have been discovered through due diligence,
and (3) was ‘of such magnitude that production of it
earlier would have been likely to change the disposition of the case.’” Jones v. Aero/Chem Corp., 921 F.2d
875, 878 (9th Cir. 1990).
The court may also grant relief from judgment
based on “fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by an opposing party.” Fed. R. Civ. P. 60(b)(3). To prevail under this subsection, the movant “must prove by clear
and convincing evidence that the verdict was obtained
through fraud, misrepresentation, or other misconduct and the conduct complained of prevented the losing party from fully and fairly presenting the defense.” De Saracho v. Custom Food Mach., Inc., 206
F.3d 874, 880 (9th Cir. 2000). In addition, this subsection “require[s] that [the alleged] fraud . . . not be
discoverable by due diligence before or during the proceedings.” Casey v. Albertson’s Inc., 362 F.3d 1254,
1260 (9th Cir. 2004).
Under either subsection (b)(2) or (b)(3), the motion
“must be made . . . no more than a year after the judgment or order.” Fed. R. Civ. P. 60(c)(1).

70a
B.

Federal Rule of Civil Procedure 60(d)

The court may also “set aside a judgment for fraud
on the court.” Fed. R. Civ. P. 60(d)(3). Relief under
this subsection is not subsection is not subject to the
one-year time limit. United States v. Sierra Pac. Indus., Inc., 862 F.3d 1157, 1167 (9th Cir. 2017) (citation
omitted), cert. denied, 138 S. Ct. 2675 (2018).
“A court’s power to grant relief from judgment for
fraud on the court stems from ‘a rule of equity to the
effect that under certain circumstances, one of which
is after-discovered fraud, relief will be granted against
judgments regardless of the term of their entry.’” Id.
(quoting Hazel-Atlas Glass Co. v. Hartford-Empire
Co., 322 U.S.238, 244 (1944)). “[R]elief from judgment
for fraud on the court is ‘available only to prevent a
grave miscarriage of justice.’” Id. (quoting United
States v. Beggerly, 524 U.S. 38, 47 (1998)). Thus, “not
all fraud is fraud on the court.” Id. (citation omitted).
“In determining whether fraud constitutes fraud
on the court, the relevant inquiry is not whether
fraudulent conduct prejudiced the opposing party, but
whether it harmed the integrity of the judicial process.” United States v. Estate of Stonehill, 660 F.3d
415, 444 (9th Cir. 2011) (internal quotation marks and
citation omitted). Therefore, fraud on the court must
be an “intentional, material misrepresentation,” In re
Napster, Inc. Copyright Litig., 479 F.3d 1078, 1097
(9th Cir. 2007),1 and “involve an unconscionable plan
or scheme which is designed to improperly influence
the court in its decision.” Pumphrey v. K.W. Thompson Tool Co., 62 F.3d 1128, 1131 (9th Cir. 1995) (citation omitted).
1

Abrogated on other grounds by Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100 (2009).

71a
The relevant misrepresentations must also go “to
the central issue in the case,” Estate of Stonehill, 660
F.3d at 452, and must “affect the outcome of the case,”
id. at 448. In other words, the newly discovered misrepresentations must “significantly change the picture already drawn by previously available evidence.”
Id. at 435. Thus, “[m]ere nondisclosure of evidence is
typically not enough to constitute fraud on the court,
and ‘perjury by a party or witness, by itself, is not normally fraud on the court’ “ unless it is “so fundamental
that it undermined the workings of the adversary process itself.” Id. at 444–45 (quoting In re Levander, 180
F.3d 1114, 1119 (9th Cir. 1999)). However, “perjury
may constitute fraud on the court if it involves, or is
suborned by, an officer of the court.” Sierra, 862 F.3d
at 1168 (internal quotation marks and citation omitted).
Lastly, the fraud must have been unknown at the
time of settlement or entry of judgment because “issues that are before the court or could potentially be
brought before the court during the original proceedings ‘could and should’ be exposed at trial.’” Id. (quoting In re Levander, 180 F.3d at 1120). However, relief
is available for fraud discovered after entry of judgment, or “after-discovered fraud,” Hazel-Atlas, 322
U.S. at 244, particularly if the opposing party attempted to uncover the fraud before trial, but was
“thwarted by a witness who blatantly lied about the
relevant issue.” Sierra, 862 F.3d at 1168–69. Accordingly, relief is supported if “key information” is revealed only after entry of judgment. Sierra, 862 F.3d
at 1169.

72a
III.
A.

DISCUSSION

Rule 60(d)

As noted, to grant Swisher relief for fraud on the
court, it must prove that (1) TSI engaged in misconduct that undermined the judicial process and (2) the
misconduct went to the central issues in the case. See
Estate of Stonehill, 660 F.3d at 445, 452.
Swisher sought information relevant to TSI’s payment of federal excise taxes during discovery.
Swisher served on TSI requests for production seeking federal excise tax filings made by or on behalf of
TSI, its costs and profits, and the sources of funds for
its machinery. See Roman Decl., Ex. A, RFP Nos. 26–
29, 32–34; Ex. B, Interrogatory No. 17; Ex. L, RFP
Nos. 21–24, 26, 57. In response to the requests for
production seeking the federal excise tax filings made
by or on behalf of TSI, TSI objected on the grounds
that the production of the actual filings was burdensome and that the documents were irrelevant. Id., Ex.
C, Resp. Nos. 26–28. Swisher responded that “FET
payments are an essential component to calculating
profits and profitability, which, of course, is the baseline for the lost profits analysis TSI’s allegations require.” Id. ¶ 3, Ex. E. However, TSI would later argue
that “[t]he information Swisher seeks will already be
found in TSI’s financial records, sales orders, and invoices, which it has agreed to produce,” id. ¶ 4, Ex. F,
and that “[g]iven that the tax rates are publicly available, and given that the same information you seek
will be available in TSI’s sales records (and it’s fair to
say that TSI has no incentive to overestimate its tobacco sales to the government), we do not think the
probative value of these filings outweighs the burden
of collecting them.” Id. ¶ 7, Ex. I. TSI also sought to
remove search terms relating to federal excise taxes

73a
in connection with electronically-stored information
(“ESI”) production. Id. ¶¶ 5–6, Exs. G–I. Swisher then
agreed to remove these search terms. Id. ¶ 8. TSI’s
general counsel subsequently testified that TSI had
produced all documents responsive to Swisher’s discovery requests. See Yu Decl., Ex. R at 164:24–165:22.
Of course, TSI never disclosed the information Alrahib later admitted in his interview with federal
agents, i.e., the scheme through which Bryant evaded
federal excise taxes on TSI’s cigarillos and passed
along a portion of the profits from this evasion to Alrahib in the form of kickbacks. Nor did TSI disclose
documents which demonstrated what Alrahib admits
were falsified invoices prepared by Bryant which perpetrated the scheme. Therefore, the documents produced did not reflect the true cost of manufacturing
and importing TSI’s cigarillos, even though they were
presented to Swisher as an accurate reflection of TSI’s
costs and profits. See, e.g., Yu Decl., Exs. J–L; Romand Decl., Ex. K at Resp. No. 17, Ex. P at Resp. No.
17, Ex. S at 88:5–95:2, 100:22–105:25, 113:1–7.
These misleading financial records were in turn
relied on by TSI’s economic expert, Dr. Deforest
McDuff (“Dr. McDuff”), who used them as the basis of
his damages analysis. See, e.g., Yu Decl., Ex. G at 42–
48, Attachments C-1, C-6, C-7, D-13, D-14, E-12. Dr.
McDuff also worked with Alrahib and Bryant, who
submitted to his interviews. See, e.g., id. at 2–3, 23–
25, 33–36. Dr. McDuff’s damages calculations relied
on TSI’s profit margins during 2013 and 2014 which,
based on Alrahib’s admissions, were artificially inflated by the underpayment of federal excise taxes, infecting Dr. McDuff’s entire analysis. See id. at 47–48,
Attachments C-6, C-7. Swisher also presents the declaration of its own expert, Dr. Alan Cox (“Dr. Cox”)

74a
concluding that TSI’s avoidance of federal excise taxes
would allow it to lower costs and charge “artificially
low prices . . . to sell more cigarillos than they would
have in the absence of fraud.” Declaration of Alan Cox
(“Cox Decl.”), Docket No. 377-2 ¶ 20. Dr. Cox also
opines that, because of TSI’s low gross profit margins,
when corrected for the correct federal excise tax, TSI
would have operated on a negative margin on sales of
imported cigarillos from 2013–15. Id. ¶¶ 30–31.
At trial, TSI moved to exclude “any evidence or argument regarding any tax or regulatory enforcement
actions Mr. Alrahib faced in the years prior to TSI’s
manufacturing relationship with Swisher.” Docket
No. 112 at 1. Prior to founding TSI, Alrahib faced a
civil forfeiture action for failing to pay excise taxes on
tobacco products distributed through one of his prior
businesses. Yu Decl., Ex. M at 48:11–51:12. In support
of its motion, TSI argue that Alrahib’s failure to pay
excise taxes more than a decade prior had nothing to
do with the two central issues in this case, and that
the admission of such past crimes, wrongs, or tax issues would lead to unfair prejudice. Docket No. 112
at 1. The Court ruled in TSI’s favor on the basis of
these representations, reasoning that “[s]tripped of a
proper link, the evidence is merely improper character
evidence.” Docket No. 163 at 4. Of course, had TSI
disclosed Alrahib and Bryant’s scheme, that “proper
link” would have been clear. But based on TSI’s inaccurate arguments that Alrahib’s federal excise tax violations were merely past wrongs, Swisher was foreclosed from asking Alrahib about excise tax evasion, a
line of questioning that, absent perjury, would likely
have led to the disclosure of the fraudulent scheme he
later disclosed to federal IRS and ATTAB agents.

75a
Alrahib’s credibility was central to the trial. He
was TSI’s first witness, and offered testimony regarding nearly element of TSI’s claims. See Yu Decl., Ex.
U at 28–102. In addition, other TSI witnesses presented a materially false portrayal of TSI’s financial
records, costs, profitability, injury, and damages. For
instance, TSI’s CFO Salah Kureh testified that every
item of revenue or expense was properly recorded in
TSI’s financial records and that all this information
was provided to TSI’s expert. Id., Ex. V at 9–13. He
also testified that TSI had higher profits on Productos-manufactured products compared to Swishermanufactured products because Products’ costs were
lower, without disclosing the tax evasion scheme
which reduced these costs. Id. at 20. Dr. McDuff further testified about TSI’s profit margins, projected
sales, lost profits, and the fact and extent of TSI’s
damages. Id. at 175–82, 187–88, 190, 193–98. TSI also
offered, and the Court admitted into evidence, Trial
Exhibits 135 and 136, which set forth artificially inflated profit margins for TSI. Id. at 193–95; id., Exs.
X–Z. Based on these inaccurate profit margins, Dr.
McDuff opined that TSI suffered $9,062,679 in lost
profits between 2012 and 2015, and $5,752,815 in future sales, totaling $14,815,494 in damages. Id., Ex. V
at 193–97, Exs. X–Y, Ex. A at 35, 53. After trial, the
jury awarded the exact amounts Dr. McDuff computed
based on TSI’s false financial records. Id., Ex. Z at 35.
Based on the foregoing, TSI presented to the jury
and the Court a theory of “lost profits” premised on
inaccurate data which was a product of a fraudulent
tax evasion scheme. Therefore, TSI’s conduct tainted
the integrity of the trial and interfered with the judicial process, and the judgment must be set aside. Fed.
R. Civ. P. 60(d).

76a
TSI’s opposition does not present any argument
which persuades the Court to alter this conclusion.
TSI argues that, even if it falsely represented that further responsive information did not exist, it is not
“fraud on the court” because the representation was
made to Swisher, not the Court. Opp’n, Docket No.
410 at 21–22. However, this “trail of fraud continued
without break” into proceedings before the Court and
infected key evidence presented to the jury. Hazel-Atlas, 322 U.S. at 250.
TSI further argues that no misrepresentations
were made to the jury because, regardless of Alrahib’s
participation in a “private conspiracy,” the cost basis
that formed the basis of Dr. McDuff’s damages calculations “would have been the same anyway.” Opp’n,
Docket No. 410 at 18. However, as demonstrated
above, this statement is untrue based on Alrahib’s
own admissions. His tax evasion was not a “private
conspiracy” because it was engineered to avoid taxes
on TSI’s products, artificially boosting TSI’s profits.
TSI contends that no false evidence was presented because “Swisher does not allege that Trendsettah actually had higher costs than were reported to the jury,
or that it actually had a lower profit margin . . . only
that Trendsettah should have had higher costs and/or
lower profit margins” from 2013–15. Docket No. 410
at 12. This argument is unavailing. TSI had no rights
to the “profits” that were, by Alrahib’s admission, stolen from the government. See AlphaMed Pharms.
Corp. v. Arriva Pharms., Inc., 432 F. Supp. 2d 1319,
1348 (S.D. Fla. 2006) (“It is beyond dispute that [a
plaintiff] cannot recover lost profits that are predicated on the completion of illegal activity.”); Carruthers v. Flaum, 365 F. Supp. 2d 448, 470 (S.D.N.Y.
2005) (dismissing claims with prejudice because
plaintiff’s claims for damages “are predicated on the

77a
completion of illegal activity . . . and are not recoverable for that reason alone”).
TSI also argues that relief is not justified based on
Swisher’s counsels’ lack of diligence, i.e., failure to uncover the fraud sooner. Opp’n, Docket No. 410 at 22.
For instance, TSI argues that Swisher failed to pursue
documentation regarding TSI’s obligation to pay federal excise taxes, and failed to ask “a single witness a
single question about” the subject. Id. at 6. However,
as noted, Swisher served discovery calling for the production of the information which would have revealed
the fraud, including “all documents showing or reflective of federal excise tax paid with respect to Splitarillos, whether paid by TSI or on TSI’s behalf.” Roman
Decl., Ex. A, RFP Nos. 26, 27 (emphasis added). TSI
resisted this discovery by objecting to its production
on grounds of irrelevance and undue burden. Id., Ex.
C, Resp Nos. 26, 27. Moreover, TSI’s witnesses testified that all relevant documents were collected and
produced. See Yu Decl., Ex. R at 164–65.
TSI also successfully moved in limine to exclude
any evidence or argument regarding Alrahib’s past
tax-related enforcement actions, in part based on the
argument that Alrahib’s tax evasion was merely past
conduct that had no relevance to this trial. Docket
Nos. 112 at 1, 148-1 at 2. The Court found that there
was no “proper link” between such evidence and this
case. Docket No. 163 at 4. TSI also claimed that
Swisher would be able to determine the amount of federal excise taxes paid on its products using other documents to be produced and the publicly available tax
rate; however, this misrepresentation did not account
for TSI’s failure to comply with the law by paying that
rate. Roman Decl.¶¶ 4, 7, Exs. F, I. Alrahib also testified in a deposition that he had learned from his past

78a
tax-related mistakes, giving Swisher even less of a basis on which to pursue a theory of ongoing tax fraud.
Yu Decl., Ex. M at 48:11–49:1, 50:3–7, 541:7–12. Furthermore, TSI submits invoices with its opposition
that it argues show that TSI did not fail to pay excise
taxes, but those are the very types of documents that
TSI’s CEO has admitted are fraudulent. Docket No.
379-2 at 3–5, 10–11; Docket No. 410-2 at 3–4, 10–11.
Therefore, TSI’s claim that excise taxes were of “no interest” to Swisher in discovery or trial, and that the
“criticality” of the issue was not asserted until over
three years after the verdict was returned, is incorrect.
Based on the foregoing, Swisher’s discovery efforts
constituted “due diligence” for purposes of Rule
60(d)(3). Swisher was “entitled to accept [TSI’s] answers to [its] discovery requests as accurate and not
to seek additional discovery relating to the issue.”
Schreiber Foods, Inc. v. Beatrice Cheese, Inc., 305 F.
Supp. 2d 939, 961 (E.D. Wis. 2004), reversed on other
grounds, 402 F.3d 1198 (Fed. Cir. 2005). TSI cannot
blame Swisher for the success of its obstructionist conduct. Id.; see also Wyle v. R. J. Reynolds Industries,
Inc., 709 F.2d 858, 591 (9th Cir. 1983) (holding that it
would be improper to allow a party to “profit from its
own failure to provide discovery”); Alpern v. UtiliCorp
United, Inc., 84 F.3d 1525, 1537 (8th Cir. 1996) (holding that plaintiff’s failure to timely produce relevant
documents requested by the defendant should not be
viewed as lack of due diligence on the part of the defendant); Hazel-Atlas, 322 U.S. at 246 (stating “[w]e
cannot easily understand how, under the admitted
facts, Hazel should have been expected to do more
than it did to uncover the fraud” where plaintiff interfered with defendant’s attempts to uncover the fraud);

79a
Pumphrey, 62 F.3d at 1133 (where defendant prevented disclosure of critical evidence during trial
through the use of misleading, inaccurate, and incomplete responses to discovery requests and presentation of fraudulent evidence and testimony during
trial, defendant “is in no position to dispute the effectiveness of the scheme in helping to obtain a favorable
jury verdict”).
Moreover, where, as here, the Court itself was a
victim of the fraud, “even if [the moving party] did not
exercise the highest degree of diligence [the] fraud
cannot be condoned for that reason alone.” Hazel-Atlas, 322 U.S. at 246. As the Supreme Court explained,
“[t]ampering with the administration of justice in the
manner indisputably shown here involves far more
than an injury to a single litigant. It is a wrong
against the institutions set up to protect and safeguard the public, institutions in which fraud cannot
complacently be tolerated consistently with the good
order of society.” Id. Thus, “it cannot be that the
preservation of the integrity of the judicial process
must always wait upon the diligence of litigations.” Id.
In sum, Swisher has shown by clear and convincing
evidence that TSI engaged in misconduct that undermined the judicial process which went to the central
issues in the case. See Estate of Stonehill, 660 F.3d
at 445, 452; Fed. R. Civ. P. 60(d)(3). Accordingly, the
motion for relief from judgment under Federal Rule
60(d)(3) is granted.
B.

Rules 60(b)(2) and (b)(3)

TSI argues that relief under subsections (b)(2) and
(b)(3) is time-barred by their one-year statute of limitations. Opp’n, Docket No. 410 at 13–15. TSI argues
that Swisher is not entitled to relief under Rule

80a
60(b)(2) because Swisher discovered TSI’s fraud before the Court entered a new operative judgment in
this case. However, Rule 60(b)(2) states that new evidence is that which “could not have been discovered
in time to move for a new trial under Rule 59(b).” Fed.
R. Civ. P. 60(b)(2). Here, the evidence demonstrating
fraud — Alrahib’s May 2017 interview which was revealed to the public in April 2019 — was not available
during that time frame.
TSI also points to Ninth Circuit precedent holding
that this “one-year limitation period is not tolled during an appeal.” Nevitt v. United States, 886 F.2d 1187,
1188 (9th Cir. 1989). However, “if the appeal results
in a substantive change, then the time would run from
the substantially modified order entered on mandate
of the appellate court.” Transit Casualty Co. v. Security Trust Co., 441 F.2d 788, 791 (5th Cir. 1971). Here,
the Ninth Circuit’s decision substantially altered the
judgment, and the time for bringing a Rule 60(b) motion restarts. Therefore, this case is distinguishable
from Nevitt, in which the court affirmed the district
court’s initial judgment. Nevitt, 886 F.2d at 1187.
TSI argues that “the clock is restarted only if the resulting ‘change’ to the prior judgment was such as to
present a new basis for the moving party’s challenge,
which had not existed under the prior judgment,” citing to Jones v. Swanson, 512 F.3d 1045, 1049 (8th Cir.
2008). Opp’n, Docket No. 410 at 15. However, Jones
states that the relevant inquiry is whether the “legal
rights and obligations of the parties” have changed as
a result of the appellate court’s decision. Jones, 512
F.3d at 1049. Distinguishing between liability and
damages, the Eight Circuit in Jones found that the appellate court’s decision did not result in substantial
changes because it only modified the amount of dam-

81a
ages, not the liability determination, while the defendant’s Rule 60 motion challenged only the liability
ruling. Id. Here, as noted, the Ninth Circuit’s decision
substantially altered both Swisher’s liability and
damages, and its motion challenges both. Therefore,
the motion is timely.2
Moreover, based on the same reasoning applied
above to Swisher’s motion for relief from judgment under Rule 60(d), the requirements of Rule 60(b)(2) and
60(b)(3) are satisfied. To prevail under subsection
(b)(2), the movant must show that (1) the evidence
constitutes “newly discovered evidence” within the
meaning of Rule 60(b), (2) the movant exercised due
diligence to discover this evidence, and (3) the newly
discovered evidence would have likely changed the
disposition of the case. Feature Realty, Inc. v. City of
Spokane, 331 F.3d 1082, 1093 (9th Cir. 2003). Subsection (b)(3) requires that the movant show (1) fraud,
misrepresentation, or misconduct by an opposing
party which (2) prevented it from fully and fairly presenting its case or defense. Jones, 921 F.2d at 879. As
demonstrated above, Swisher exercised the requisite
diligence, newly discovered evidence of fraud was uncovered in 2019, and the evidence fraud would have
likely changed the disposition of the case. Furthermore, the absence of this evidence of fraud from the
record substantially interfered with Swisher’s defense.

2

The Ninth Circuit’s ruling did not alter anything with respect to the breach of contract claims. Therefore, they are time
barred from relief under Rules 60(b)(2) and (b)(3). However, it is
immaterial for purposes of this ruling because the judgment in
favor of TSI on its breach of contract claims is vacated under Rule
60(d)(3).

82a
In sum, because Swisher has shown that relief is
appropriate under Rule 60(b)(2) and Rule 60(b)(3) by
clear and convincing evidence, its motion is granted
under these subsections as well.
C.

Mandate Rule

TSI also argues that the Ninth Circuit’s mandate
deprives the Court of authority to grant Swisher’s
Rule 60 motion. Opp’n, Docket No. 410 at 22–25. The
Court disagrees. “Absent a mandate which explicitly
directs to the contrary, a district court upon remand
can permit the plaintiff to ‘file additional pleadings,
vary or expand the issues.’” Nguyen v. United States,
792 F.3d 1500, 1502 (9th Cir. 1986) (quoting Rogers v.
Hill, 289 U.S. 582, 587–88 (1933)). The Supreme
Court and several Courts of Appeals have held that
district courts have the authority to rule on Rule 60
motions after the issuance of an appellate mandate.
Standard Oil Co. of California v. United States,
429 U.S. 17, 18 (1976); Gould v. Mut. Life Ins. Co. of
New York, 790 F.2d 769, 775 (9th Cir. 1986); Rembrandt Vision Techs., L.P. v. Johnson & Johnson Vision Care, Inc., 818 F.3d 1320, 1329 (Fed. Cir. 2016).
Therefore, the Ninth Circuit’s mandate does not preclude the Court’s consideration of Swisher’s Rule 60
motion.
IV.

CONCLUSION

For the foregoing reasons, the Court grants the
motion for relief from judgment. Therefore, the motions to stay and for summary adjudication are denied as moot.
IT IS SO ORDERED.

83a
APPENDIX F
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Trendsettah USA, Inc.,
et al,
Plaintiffs,

Case No. SACV14-01664
JVS (DFMx)
August 19, 2019

v.
Swisher International
Inc,

The Honorable
James V. Selna, U.S.
District Court Judge

Defendants.
Proceedings:

(IN CHAMBERS) Order Setting Status Conference

Minute Order Setting Scheduling Conference
The Court sets a scheduling conference for Monday, September 23, 2019 at 11:00 a.m. The parties
shall submit a joint report seven days in advance
which should address:







New trial and pretrial conference dates.
What additional fact discovery do the parties
wish to undertake.
What additional or revised expert reports do
the parties desire to submit, including discovery requirements.
Date for a further settlement conference.
Any other matters the parties wish to address
at the conference.

84a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TRENDSETTAH USA, INC.;
TRENDSETTAH, INC.,
PlaintiffsAppellants,
v.
SWISHER INTERNATIONAL, INC.,
DefendantsAppellee.
TRENDSETTAH USA, INC.;
TRENDSETTAH, INC.,
PlaintiffsAppellants,
v.
SWISHER INTERNATIONAL, INC.,
DefendantsAppellee.

No. 16-56823

D.C. No. 8:14-cv01664-JVS-DFM
Central District of
California,
Santa Ana

ORDER
No. 16-56827

D.C. No. 8:14-cv01664-JVS-DFM
Central District of
California,
Santa Ana

[Issued April 18,
2019]

85a
Before:
W. FLETCHER and PAEZ, Circuit
Judges, and GLEASON, District Judge.
Defendant-Appellee filed a petition for rehearing
or rehearing en banc on March 22, 2019 (Dkt. No. 83).
The panel has voted to deny the petition for rehearing.
Judges W. Fletcher and Paez have voted to deny the
petition for rehearing en banc, and Judge Gleason so
recommends. The full court has been advised of the
petition for rehearing en banc and no judge of the
court has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for rehearing or rehearing en banc is
DENIED.



The Honorable Sharon L. Gleason, United States District
Judge for the District of Alaska, sitting by designation.

86a
APPENDIX H
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
TRENDSETTAH USA, INC.;
TRENDSETTAH, INC.,
Plaintiffs,
v.
SWISHER INTERNATIONAL, INC.,

Case No. 8:14-cv01664-JVS (DFMx)
The Hon. James V.
Selna
JOINT
PROPOSED JURY INSTRUCTIONS

Defendants.
DEFENDANT’S PROPOSED JURY INSTRUCTION NO. 29 MONOPOLIZATION - UNILATERAL REFUSAL TO DEAL WITH A COMPETITOR
As stated before, one of the elements TSI must
prove is that Swisher engaged in anticompetitive conduct. TSI claims that this element is satisfied in this
case because TSI claims that Swisher unlawfully refused to deal with TSI, a competitor.
Ordinarily, a company may deal or refuse to deal
with whomever it pleases, as long as it acts independently. Even a company with monopoly power in
a relevant market has no general duty to cooperate
with its business rivals and ordinarily may refuse to
deal with them.
Swisher’s alleged refusal to deal with TSI only
constitutes anticompetitive conduct if (i) it was contrary to Swisher’s short-run best interests, and

87a
(ii) only made sense for Swisher because it harmed
TSI and helped Swisher maintain monopoly power in
the long run. In other words, if Swisher’s refusal to
deal results in, or was expected to result in, a shortrun benefit to Swisher – such as more profits, a higher
market share, or avoiding the loss of customers – then
it is not anticompetitive and you must find for Swisher
on this element. Also, if Swisher’s refusal deal hurt
(or was expected to hurt) Swisher, but was not done
specifically to harm TSI, then you likewise must find
for Swisher on this element.
On the other hand, if Swisher’s refusal to deal
hurt Swisher in the short run (or was expected to do
so), and was undertaken only because Swisher expected it to harm TSI and enhance Swisher’s monopoly power in the long run, then you must find for TSI
on this element.
If you find that Swisher had mixed motives for its
refusal to deal – that is, that the conduct was expected
to result in some short run benefits for Swisher as well
as harm competitors – then you must find for Swisher
on this element. A refusal to deal is only anticompetitive where it hurts the defendant in the short run and
benefits the defendant only by harming competitors.
Source: ABA Model Jury Instructions in Civil Antitrust Cases 2005 Ed. Instruction 3 No. 2 at C-36
through C-38.

88a
APPENDIX I
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION
TRENDSETTAH USA, et al.,
Plaintiffs,

SACV-14-1664JVS
Santa Ana, California

v.
SWISHER INTERNATIONAL,
INC.,
Defendant.

REPORTER'S TRANSCRIPT OF PROCEEDINGS
Trial Day 4 - March 18, 2016
Q
For your engagement have you calculated
Swisher’s market share for the cigarillo market?
A
Yes -- the cigarillo segment as well as the nontipped cigarillo segment.
Q
And what data did you use to calculate the market share?
A
I used the same MSA data that we’ve been discussing because it provides a comprehensive measure.
Q

The same data as Dr. Cox?

A

Correct.

MR. GAW: Okay, can we go to Slide 16, please.
Q

What’s on Slide 16?

89a
A
Slide 16 shows Swisher’s market share using
the market definition, geographic market definition
put forward by Swisher. This is for non-tipped cigarillos for the entire United States. You can see
Swisher’s share there from 2012 to 2015. Those figures are 35.23 percent in 2012, 35.02 in 2013, 39.84 in
2014, and 43.6 in 2015.
Q
Now, to be clear, by presenting this slide, are
you saying that the real relevant geographic market
is the entire country?
A
No. As discussed, I think that regional markets
are more appropriate, yet this is the market definition
put forward by Swisher.
Q
This is just for the non-tipped cigarillo market;
correct?
A

Correct.

Q
And there is a checked box here, yes, with dangerous probability. What does that refer to?
A
That refers to a view that there is a dangerous
probability of achieving market power in the nontipped cigarillo market for the entire United States if
there is a finding of that market definition.
Q
Based on the percentages here, do you have an
opinion as to whether Swisher possessed a dangerous
probability of achieving monopoly power in the nationwide market for non-tipped cigarillos?
A

Yes. I’m of the view that they do.

Q
Okay. You weren’t here for the opening, but
there was some to-do about an earlier iteration of your
report having a big no under dangerous probability of
monopoly. Did your report in fact say that?

90a
A
I’m aware that my earlier report did in the attachment, yes.
Q
Did you explain during your deposition why it
said no?
A
Yes. We discussed it at deposition. It was essentially a formula that was implemented on page
something hundred of my attachments, yet it was not
meant to convey an opinion one way or the other.

91a
APPENDIX J
Attachment B-1.
Estimates of U.S. Non-Tipped Cigarillo Market
Volume
Year

2011
2012
2013
2014
2015
Total

Non-

All

Non-

All

All Non-

lipped

Prod-

Tipped

Prod-

Tipped

Cigaril-

ucts

Ciga-

ucts

Cigaril-

los in

in Top

rillo

in Large

los

Top 100

100

Share

Cigars

[E]

[A]

[B]

[C]

[D]

1,497,18
9,899
1,753,17
4,689
2,205,86
7,243
2,433,84
7,004
2,814,94
6,225

2,862,74
0,690
3,194,53
6,213
3,762,96
2,739
4,006,65
5,956
4,439,00
0,865

10,705,0
25,060

18,265,8
96,463

52.3%
54.9%
58.6%
60.7%
63.4%
58.6%

4,095,23
4,632
4,438,83
2,778
4,941,20
6,716
5,244,58
5,897
5,652,47
6,557

2,141,77
4,120
2,436,04
9,791
2,896,55
9,651
3,185,82
8,735
3,584,45
9,213

24,372,3
36,580

14,244,6
71,510

Notes and sources:
[A] [B] Data are from Attachment E-2.
2011 data are estimated based on the CAGR from
2012-2015.
2015 data are adjusted by (12 / 10) to estimate annual values.
[C] = [A] / [B].
[A] [B] Data are from Attachment E-1.
2011 data are estimated based on the CAGR from
2012-2015.
2015 data are adjusted by (12 / 10) to estimate annual values.
[E] = [C] x [D].

92a
APPENDIX K
From:

Akrum Alrahib

Sent:

October 25, 2012 03:27 PM

To:

Jane Green

Subject:

Splitarillo forecast till end of the year

Here is our breakdown.
3/99 3pk
Og 14,000 mc
100nat. 10,000 mc
G6 3,500 Da Bomb 1,500
Swag 1,000
Rozay 1,000
3/99 60’s
Og 4,000
100nat 3,000
3/149 3pks
Og 6,000
100nat 4,000
G6 2,000
Da Bomb 1,000
Swag 500
Rozay 500
3/149 60’s
Og 2,000
100nat 1,000
3for2 pks
Og 4,000
100nat. 2,500
G6 1,000
Da Bomb 750

93a
Swag 500
Rozay 500
I need this order broken down into 9-11 ship dates
if you can from now until the end of the year. The more
I have spread out to offer wholesalers the more I can
turn it quicker. Right now I am currently out of product and the order that we will receive is already pre
sold. Thanks. Call me if you have any questions.
Trend Settah Inc.
AK

94a
End of 2012 Production Forecast
TSI End of Dec Forecast
3/99

3/99

3/1.49

3/1.49 60

3 for 2

Packs

60 ct

60 Pks

cts

Packs

OG Sweet

16,000

3,000

6,000

1,000

2,000

100 Natural

10,000

2,000

4,000

1,000

1,000

G6 Grape

5,000

2,500

500

Swagberry

2,000

1,000

250

Rozay Wine

2,000

1,000

250

3,000

1,500

250

Da Bomb
Blueberry
Total:

38,000

5,000

16,000

2,000

4,250
TOTAL

Cigars

68,400,000

12,000,000

28,800,000

4,800,000 7,650,000 121,650,000

95a
1st Order
October 17th Order
3/99 3 pks
OG Sweet
G6 Grape
Rozay Wine
Swagberry
Da Bomb Blueberry
One Hundred Natural
Total:

2,500
1,000
500
500
500

3/99 60
ct
1,000
200
150
150
200

1,500

1,000

250

6,500

2,700

814

Ship whatever you have please

3 for 2s
500
64

96a
2nd Order

OG Sweet
G6 Grape
Rozay Wine
Swagberry
Da Bomb
Blueberry
One Hundred Natural
Total:

3/99 3
pks
3,000
1,200
500
500

3/99
60 ct
1,000
300
200
200

3/1.49
3 pks
1,000
500
200
200

3/1.49
60 ct
500
100
100
100

3 for
2s
400
200
100
100

500

200

200

100

100

2,000

1,000

1,000

300

300

7,700

2,900

3,100

1,200

1,200

97a

This page is intentionally left blank.

Month

1
2
3
4
5

6
7
8
9

Year

2012
2012
2012
2012
2012

2012
2012
2012
2012

35,496,000
69,960,000
16,000,000
20,850,000

11,592,600
21,092,400
21,530,040
12,558,420

13,140,000 3
20,580,000 4
53,700,000 5 3,920,400 5
20,850,000 4,000,000 5

13,140,000
20,580,000
57,620,400
24,850,000

11,592,600
21,092,400
17,609,640
8,638,020

6,857,400

11,592,600
21,092,400
17,609,640
15,495,420

Correcting Order Calculations
Ordered
Received
Branded
Bulk
Total
Branded
Bulk
Total
---------------------------------------------------------------------------------------(Cigarillos)---------------------------(h)
(a)
(b)
(c)
(d)
(e)
(f)
(g)
n/a
2,214,000
2,214,000
13,852,333
5,983,200
5,983,200
28,660,000
5,983,200 13,852,333 1
5,166,000 14,807,667 1
14,807,667
5,166,000
5,166,000
20,700,000
4,108,800
4,108,800
4,108,800
8,820,000 10,185,040 29,520,000 2
29,520,000 10,259,440
- 10,259,440

Replication of
Dr. McDuff’s
Attachment D-3
Ordered
Received

January 2012 - February 2014

Exhibit 10a Revised
Analysis of Monthly Order Deficit
TSI

APPENDIX L

98a

Month
10
11
12
1
2
3
4
5
6
7
8
9
10
11
12
1
2
Totals:
Total
Deficit:

Year

2012
2012
2012
2013
2013
2013
2013
2013
2013
2013
2013
2013
2013
2013
2013
2014
2014
(i)

(ii)
235,116,17
0

217,156,77
0

(14,846,80
0)

Correcting Order Calculations
Ordered
Received
Branded
Bulk
Total
Branded
Bulk
---------------------------------------------------------------------------------------(Cigarillos)---------------------------129,650,000 26,530,800 12,522,794 6 8,000,000 6
20,522,794 18,690,000
3,920,400
4,000,000 14,883,000 53,669,118 6
4,000,000
57,669,118 10,962,600
7,840,800
4,150,860 55,458,088 6
55,458,088
4,150,860
3,920,400
79,860,000 15,642,000 42,606,000 7 3,900,000 7
46,506,000
3,880,800
3,920,400
16,000,000 16,251,000 27,468,000 7 16,000,000
43,468,000
8,892,000 11,761,200
4,000,000 6,768,000
5,886,000 7
4,000,000
9,886,000
2,847,600
7,840,800
- 13,024,800
5,184,000
3,920,400
31,936,800 12,533,400
- 3,900,000 8
3,900,000
8,613,000
3,920,400
13,000,000 11,058,000 10,036,800 8 4,000,000 8
14,036,800
7,137,600
3,920,400
- 15,859,800
9,000,000 8
9,000,000 11,939,400
3,920,400
4,000,000 14,289,600
9,000,000 8
4,000,000
13,000,000 10,369,200
7,840,800
8,136,000
9,000,000 8
9,000,000
8,136,000
983,400
35,323,200 13,683,600
8,323,200 9
8,323,200 13,683,600
8,236,800
9,000,000 9
9,000,000
8,236,800
4,123,800
9,000,000 9
9,000,000
4,123,800
3,567,600
9,000,000 9
9,000,000
3,567,600
2,184,270
2,184,270
518,256,000 283,139,83 436,420,000 55,720,400 492,140,400 219,263,23 70,567,200
0
0

Replication of
Dr. McDuff’s
Attachment D-3
Ordered
Received

202,309,97
0

22,610,400
18,803,400
8,071,260
7,801,200
20,653,200
10,688,400
9,104,400
12,533,400
11,058,000
15,859,800
18,210,000
9,119,400
13,683,600
8,236,800
4,123,800
3,567,600
2,184,270
289,830,43
0

Total

99a

100a
APPENDIX M
From:
Akrum Alrahib
Sent:
Monday, December 31, 2012 11:30 AM
To:
John Miller, Buzz, Salah Cpa
Subject:
Jan 2013
John hope you are having a great holiday. I wish
you nothing but success in the coming New Year. I
am very puzzled as to how this year wrapped up. I
thought we had a great insightful meeting together
and that you would get back with me to let me know
how TSI and Swisher will proceed. After you left a
couple days later Jane tells me about an electrical
problem. I have sent you numerous emails and have
called Barry several times in order to try and get some
kind of direction/explanation.
John, I have a team of employees that as of right
now have no direction at all. I have over 300 wholesalers hounding and barking at me about Splitarillo
product and when will they receive it.
I have Swisher reps in the marketplace going
around telling wholesalers that we have cut off
Splitarillos completely!!! And lastly I have products
like Good Times and Show Cigars filling in my
backorders and are gaining the traction and momentum that I started. (Not splitarillos or swisher)
I am counting on you as a FRIEND TO DO THE
RIGHT THING!!! I really need to know where we
stand and how to move forward. If you can call me or
let me know that would be great.
Thanks and Happy New Year,
Trend Settah Inc
AK

